Audit Report




OIG-11-108
Report on the Bureau of the Public Debt Federal Investments
Branch’s Description of its Investment/Redemption Services and
the Suitability of the Design and Operating Effectiveness of its
Controls for the Period August 1, 2010 to July 31, 2011
September 23, 2011




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             September 23, 2011


            MEMORANDUM FOR VAN ZECK, COMMISSIONER
                           BUREAU OF THE PUBLIC DEBT

            FROM:                  Michael Fitzgerald
                                   Director, Financial Audits

            SUBJECT:               Report on the Bureau of the Public Debt Federal
                                   Investments Branch’s Description of its
                                   Investment/Redemption Services and the Suitability of the
                                   Design and Operating Effectiveness of its Controls for the
                                   Period August 1, 2010 to July 31, 2011


            I am pleased to transmit the attached Report on the Bureau of the Public Debt (BPD)
            Federal Investments Branch’s Description of its Investment/Redemption Services and
            the Suitability of the Design and Operating Effectiveness of its Controls for the
            period August 1, 2010 to July 31, 2011. Under a contract monitored by the Office
            of Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an examination of the description of controls and the suitability of the
            design and operating effectiveness of the general computer and
            investment/redemption processing controls used for various Federal Government
            agencies’ (Fund Agencies) transactions for the period August 1, 2010 to July 31,
            2011. The contract required that the examination be performed in accordance with
            generally accepted government auditing standards and the American Institute of
            Certified Public Accountants’ Statement on Standards for Attestation Engagements
            Number 16, Reporting on Controls at a Service Organization.

            In its examination, KPMG LLP found in all material respects:

                •   the Description of Controls Provided by the BPD fairly presents the general
                    computer and investment/redemption processing controls that were designed
                    and implemented throughout the period August 1, 2010 to July 31, 2011,
                •   that these controls were suitably designed to provide reasonable assurance
                    that the control objectives would be achieved if the controls operated
                    effectively throughout the period August 1, 2010 to July 31, 2011, and Fund
                    Agencies applied the complementary Fund Agency controls and sub-service
Page 2


       organizations applied the controls contemplated in the design of BPD’s
       controls throughout the period August 1, 2010 to July 31, 2011, and
   •   that the controls tested, which together with the complementary Fund
       Agency controls and sub-service organizations’ controls, if operating
       effectively, were those necessary to provide reasonable assurance that the
       control objectives were achieved, operated effectively throughout the period
       August 1, 2010 to July 31, 2011.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an examination of the description of controls, the suitability of the design and
operating effectiveness of controls in accordance with generally accepted
government auditing standards, was not intended to enable us to express, and we
do not express, an opinion on BPD's description of controls, the suitability of the
design of these controls and the operating effectiveness of controls tested.
KPMG LLP is responsible for the attached independent service auditors’ report dated
September 20, 2011, and the conclusions expressed in the report. However, our
review disclosed no instances where KPMG LLP did not comply, in all material
respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment
                 U.S. Department of the Treasury
                    Bureau of the Public Debt



                   Federal Investments Branch
                     General Computer and
            Investment/Redemption Processing Controls




      Report on Federal Investment Branch’s Description of Its
Investment/Redemption Services and the Suitability of the Design and
              Operating Effectiveness of Its Controls
           For the Period August 1, 2010 to July 31, 2011
                                   U.S. DEPARTMENT OF THE TREASURY
                                       BUREAU OF THE PUBLIC DEBT
                                     FEDERAL INVESTMENTS BRANCH

    REPORT ON FEDERAL INVESTMENT BRANCH’S DESCRIPTION OF ITS
INVESTMENT/REDEMPTION SERVICES AND THE SUITABILITY OF THE DESIGN
          AND OPERATING EFECTIVENESS OF ITS CONTROLS


                                                        Table of Contents

Section                                                     Description                                                                            Page

   I. Independent Service Auditors’ Report Provided by KPMG LLP .......................................... 1

  II. Management’s Assertion and Description of Controls Provided by the Bureau of the
      Public Debt ................................................................................................................................... 5

        Management’s Assertion................................................................................................................ 6

        Overview of Operations ................................................................................................................. 8

        Relevant Aspects of the Control Environment, Risk Assessment, and Monitoring...................... 13

                 Control Environment ........................................................................................................... 13
                 Risk Assessment.................................................................................................................. 13
                 Monitoring........................................................................................................................... 13

        Information and Communication .................................................................................................. 15

        Control Objectives and Related Controls
            The Bureau of the Public Debt’s control objectives and related controls are
            included in Section III of this report, “Control Objectives, Related Controls,
            and Tests of Operating Effectiveness.” Although the control objectives and
            related controls are included in Section III, they are, nevertheless, an integral
            part of the Bureau of the Public Debt’s description of controls.

        Complementary Fund Agency Controls ....................................................................................... 17

        Sub-service Organizations ............................................................................................................ 19

 III. Control Objectives, Related Controls, and Tests of Operating Effectiveness ....................... 20

        General Computer Controls .......................................................................................................... 21

                 System Software.................................................................................................................. 21
                 Vendor Software ................................................................................................................. 24
                 Program Change Control..................................................................................................... 26
                 Physical Access ................................................................................................................... 28
              Logical Access .................................................................................................................... 31
              Computer Operations .......................................................................................................... 34
              Network Performance Monitoring ...................................................................................... 36

      Investment/Redemption Processing Controls ............................................................................... 37

              Item Processing Security .................................................................................................... 37
              Item Capture ........................................................................................................................ 38
              Confirmations...................................................................................................................... 45
              Fund Balance Adjustment ................................................................................................... 47
              Recordkeeping..................................................................................................................... 49
              Segregation of Duties .......................................................................................................... 51
              Interest Calculation and Payments ...................................................................................... 53
              Statement Rendering ........................................................................................................... 57

IV.   Other Information Provided by Bureau of the Public Debt ................................................... 59

      Contingency Planning ................................................................................................................... 60
I.   INDEPENDENT SERVICE AUDITORS’ REPORT
             PROVIDED BY KPMG LLP




                    1
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389



                                   Independent Service Auditors’ Report


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Public Debt and the
Assistant Commissioner, Office of Public Debt Accounting


Scope
We have examined the Bureau of Public Debt (BPD) Federal Investment Branch’s (FIB’s) description of
its general computer and investment/redemption processing controls used for processing Fund Agencies’
transactions throughout the period August 1, 2010 to July 31, 2011 (description) and the suitability of the
design and operating effectiveness of controls to achieve the related control objectives stated in the
description. The description indicates that certain control objectives specified in the description can be
achieved only if complementary Fund Agency controls and controls at the sub-service organizations
contemplated in the design of BPD’s controls are suitably designed and operating effectively, along with
related controls at the service organization. We have not evaluated the suitability of the design or the
operating effectiveness of such complementary Fund Agency controls or controls at the sub-service
organizations.

BPD uses external service organizations (sub-service organizations). A list of these sub-service
organizations is provided in Section II. The description in Section II includes only the control objectives
and related controls of BPD and excludes the control objectives and related controls of the sub-service
organizations. Our examination did not extend to controls of sub-service organizations.

The information in Section IV of management’s description of the service organization’s system, “Other
Information Provided by Bureau of the Public Debt,” that describes contingency planning is presented by
management of BPD to provide additional information and is not a part of BPD’s description of its system
made available to Fund Agencies during the period August 1, 2010, to July 31, 2011. Information in
Section IV has not been subjected to the procedures applied in the examination of the description of the
system and of the suitability of the design and operating effectiveness of controls to achieve the related
control objectives stated in the description of the system, and, accordingly, we express no opinion on it.
Service organization’s responsibilities
In its description, BPD has provided an assertion about the fairness of the presentation of the description,
the suitability of the design and the operating effectiveness of the controls to achieve the related control
objectives stated in the description. BPD is responsible for preparing the description and for the assertion,
including the completeness, accuracy, and method of presentation of the description and the assertion,
providing the services covered by the description, specifying the control objectives and stating them in the
description, identifying the risks that threaten the achievement of the control objectives, selecting and using
suitable criteria, and designing, implementing, and documenting controls to achieve the related control
objectives stated in the description.




                                                                          2              Description of Controls Provided
                                                                                         by the Bureau of the Public Debt
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Service auditors’ responsibilities
Our responsibility is to express an opinion on the fairness of the presentation of the description, the
suitability of the design and the operating effectiveness of the controls to achieve the related control
objectives stated in the description, based on our examination. We conducted our examination in
accordance with attestation standards established by the American Institute of Certified Public Accountants
and applicable Government Auditing Standards issued by the Comptroller General of the United States.
Those standards require that we plan and perform our examination to obtain reasonable assurance about
whether, in all material respects, the description is fairly presented, the controls were suitably designed and
the controls were operating effectively to achieve the related control objectives stated in the description
throughout the period August 1, 2010 to July 31, 2011.

An examination of a d escription of a ser vice organization's system and the suitability of the design and
operating effectiveness of the service organization's controls to achieve the related control objectives stated
in the description involves performing procedures to obtain evidence about the fairness of the presentation
of the description and the suitability of the design and the operating effectiveness of those controls to
achieve the related control objectives stated in the description. Our procedures included assessing the risks
that the description is not fairly presented and that the controls were not suitably designed or operating
effectively to achieve the related control objectives stated in the description. Our procedures also included
testing the operating effectiveness of those controls that we consider necessary to provide reasonable
assurance that the related control objectives stated in the description were achieved. An examination
engagement of this type also includes evaluating the overall presentation of the description and the
suitability of the control objectives stated therein, and the suitability of the criteria specified by the service
organization and described in management’s assertion in Section II of this report. We believe that the
evidence we obtained is sufficient and appropriate to provide a reasonable basis for our opinion.

Inherent limitations
Because of their nature, controls at a service organization may not prevent, or detect and correct, all errors
or omissions in processing or reporting transactions. Also, the projection to the future of any evaluation of
the fairness of the presentation of the description, or conclusions about the suitability of the design or
operating effectiveness of the controls to achieve the related control objectives is subject to the risk that
controls at a service organization may become inadequate or fail.

Opinion
In our opinion, in all material respects, based on the criteria described in BPD’s assertion in Section II of
this report, (1) the description fairly presents the general computer and investment/redemption processing
controls that were designed and implemented throughout the period August 1, 2010 to July 31, 2011, (2)
the controls related to the control objectives stated in the description were suitably designed to provide
reasonable assurance that the control objectives would be achieved if the controls operated effectively
throughout the period August 1, 2010 to July 31, 2011, and Fund Agencies applied the complementary
Fund Agency controls and sub-service organizations applied the controls contemplated in the design of
BPD’s controls throughout the period August 1, 2010 to July 31, 2011, and (3) the controls tested, which
together with the complementary Fund Agency controls and sub-service organizations’ controls referred to
in the scope paragraph of this report, if operating effectively, were those necessary to provide reasonable
assurance that the control objectives stated in the description in Section III were achieved, operated
effectively throughout the period August 1, 2010 to July 31, 2011.



                                                             3                Description of Controls Provided
                                                                              by the Bureau of the Public Debt
Description of tests of controls
The specific controls and the nature, timing, extent, and results of the tests are listed in Section III.

Restricted use
This report, including the description of tests of controls and results thereof in Section III, is intended
solely for the information and use of the management of BPD, Fund Agencies of BPD’s system during
some or all of the period August 1, 2010 to July 31, 2011, the U.S. Department of the Treasury Office of
Inspector General, the Office of Management and Budget, the Government Accountability Office, the U.S.
Congress, and the independent auditors of BPD’s Fund Agencies, who have a sufficient understanding to
consider it, along with other information including information about controls implemented by Fund
Agencies themselves, when assessing the risks of material misstatements of Fund Agencies’ financial
statements. This report is not intended to be and should not be used by anyone other than these specified
parties.




September 20, 2011
Washington DC




                                                             4                 Description of Controls Provided
                                                                               by the Bureau of the Public Debt
II.   MANAGEMENT’S ASSERTION AND DESCRIPTION OF CONTROLS
           PROVIDED BY THE BUREAU OF THE PUBLIC DEBT




                           5         Description of Controls Provided
                                     by the Bureau of the Public Debt
                                 DEPARTMENT OF THE TREASURY
                                   BUREAU OF THE PUBLIC DEBT 

                                  PARKERSBURG, WV 26106-5312 





August 29, 2011


KPMG LLP
2001 M Street, NW
Washington, DC 20036

Ladies and Gentlemen:

We have prepared the description of the Federal Investments Branch (FIB) Investment/
Redemption Processing Controls that use the InvestOne accounting system and FedInvest
customer portal which are vendor supplied subsystems of the Government Agency Investment
Services System (GAISS) for user entities of the system during some or all of the period of August
1, 2010 through July 31, 2011, and their user auditors who have a sufficient understanding to
consider the description, along with other information, including information about controls
operated by user entities of the system themselves, when assessing the risks of material
misstatements of user entities’ financial statements. We confirm, to the best of our knowledge,
and belief, that

a.	 FIB uses a number of different sub-service organizations for certain transaction processing:

        Sub-Service Organization                       Description of Services
         Federal Reserve Bank of New York              Treasury security price data

        U.S. Department of Treasury –                  Treasury security price data
        Office of Debt Management

        U.S. Department of Treasury –                      Provides financial and IPAC reports
        Financial Management Service


    The description in Sections II and III includes only the controls and related control objectives
    of FIB and excludes the control objectives and related controls of the services listed above from
    the respective service organizations. The criteria we used in making this assertion were that the
    accompanying description:

  i.	     presents how the system made available to user entities of the system was designed and
          implemented to process relevant transactions, including:

          1.	 the types of services provided, including, as appropriate, the classes of transactions
              processed;
          2.	 the procedures, within both automated and manual systems, by which those
              transactions were initiated, authorized, recorded, processed, corrected as necessary,


                             Department of the Treasury • Bureau of the Public Debt
                                PO Box 5312 • Parkersburg, WV • 26106-5312
                                            www.treasurydirect.gov
                                                       6
 Page 2 	                                                                            August 29, 2011

             and transferred to the reports prepared for user entities;
         3.	 the related accounting records, supporting information, and specific accounts that
             were used to initiate, authorize, record, process, and report transactions; this includes
             the correction of incorrect information and how information was transferred to the
             reports prepared for user entities;
         4.	 how the systems captured and addressed significant events and conditions, other than
             transactions;
         5.	 the process used to prepare reports or other information for user entities;
         6.	 specified control objectives and controls designed to achieve those objectives;
         7.	 controls that we assumed, in the design of the system, would be implemented by user
             entities, and which, if necessary to achieve control objectives stated in the
             accompanying description, are identified in the description along with the specific
             control objectives that cannot be achieved solely by controls implemented by us; and
         8.	 other aspects of our control environment, risk assessment process, information and
             communication systems (including the related business processes), control activities,
             and monitoring controls that are relevant to processing and reporting transactions of
             user entities transactions.

  ii.	   does not omit or distort information relevant to the scope of FIB, InvestOne, and FedInvest,
         while acknowledging that the description is prepared to meet the common needs of a broad
         range of Government Account Series customers and independent auditors of those entities
         and may not; therefore, include every aspect that each user entity and its auditor may
         consider important in its own particular environment.

b.	 The description includes relevant details of changes to FedInvest and InvestOne during the
    period covered by the descriptions.

c.	 The controls related to the control objectives stated in the description were suitably designed
    and operated effectively throughout the period of August 1, 2010 through July 31, 2011 to
    achieve those control objectives. The criteria we used in making this assertion were that:

   i.	   The risks that threatened achievement of control objectives stated in the description were
         identified;

  ii.	   The identified controls would, if operating as described, provide reasonable assurance that
         those risks did not prevent the stated control objectives from being achieved; and

 iii.	   The controls were consistently applied as designed, including whether manual controls 

         were applied by individuals who have the appropriate competence and authority.


                                                 Very truly yours,




                                                 Susan L. Chapman, Director
                                                 Division of Federal Investments




                                                  7

OVERVIEW OF OPERATIONS
Treasury Directive 27-02, Organization and Functions of the Fiscal Services, dated May 23,
1997, established the Bureau of the Public Debt’s (BPD) responsibility to invest, approve
schedules for withdrawals, and maintain accounts for the Federal Trust and Deposit Programs as
directed by statute, and certify interest rates determined by the Secretary of the U.S. Department
of Treasury.
BPD has assigned these responsibilities to the Division of Federal Investments (DFI), with the
exception of interest certification, which is assigned to the Debt Accounting Branch. DF I
manages two functional areas: T rust Funds Management Branch (TFMB) and Federal
Investments Branch (FIB). F IB is responsible for processing investment transactions for 238
Federal funds, authorized by law or the Secretary of the Treasury, that comprise the balances of
the Government Account Series (GAS). F IB processes these investment transactions based on
direction provided by the Federal agencies, which have programmatic responsibility for the use of
the fund balances (the Fund Agencies). FIB employs twelve personnel and processes an average
of 360 transactions daily. FIB also performs the following operational duties:
    •   Analyzes provisions and limitations of public laws relating to investments for
        each account.
    •   Establishes and controls the record keeping of Fund Agencies’ accounts by
        receiving and issuing investment documents such as the Request for Investment
        and Redemption of Securities, Investment Confirmations and Monthly
        Statements of Account.
    •   Provides daily and monthly reports to Fund Agencies reflecting account activities
        and balances.
Investment and redemption transaction records are maintained in both paper and electronic form.
Confirmations are available in FedInvest and Monthly Statements of Account are available in
FedInvest and are also published on the TreasuryDirect website for retrieval and review by Fund
Agencies. FIB maintains and operates the InvestOne accounting system to perform the
operational duties stated above. T he InvestOne accounting system is a transaction-based
accounting system for recording and processing investment security transactions for each of the
accounts and provides information to the Public Debt Accounting and Reporting System (PARS)
and the Intragovernmental Payment and Collection System (IPAC). T he InvestOne accounting
system computes daily, monthly, quarterly, semiannual, and annual interest income for each
account for each security held. It also calculates amortization, investment discount and premium
for investment and redemption transactions, Inflation Compensation Earned on t he Treasury
Inflation Protected Securities (TIPS), and maintains summary account balances for each account
as well as balances by type of security. Fund Agencies use FedInvest, a web-based extension of
InvestOne, to enter investment and redemption requests, view transaction information, and obtain
confirmations and reports. Internal Fund managers use FedInvest and two additional extensions,
Customer Role Management (CRM) and Rate Price Administration (RPA), to process
transactions, manage users and accounts, and manage the application of pricing, rates, and
pending transactions.
FIB processes investment transactions based on requests from Fund Agencies regarding security
type, maturity, and amount. F und Agencies submit the investment/redemption requests via the
Internet using FedInvest. When necessary, Fund Agencies can submit the investment/redemption


                                                8               Description of Controls Provided
                                                                by the Bureau of the Public Debt
requests via fax, email, or hard copy form. The investment and redemption request processing for
Fund Agencies is summarized as follows.
Investment Request Processing
To establish access to FedInvest, the Fund Agency completes a FedInvest Logon-ID Request
form and provides the form to a supervisor for approval. The supervisor reviews and approves
the form and submits the form to FIB. FIB verifies that the information is complete then emails
the IT Service Desk to request that the user be added to Contact Management. Once IT Service
Desk notifies FIB that the user has been added to Contact Management, FIB provides the
FedInvest Logon-ID Request form to the Division of Systems and Program Support (DSPS)
Information System Security Representatives (ISSRs) for user set-up in FedInvest. OIT provides
the new user with their user ID and temporary password and contacts the user to login to
FedInvest with the temporary password, answer security questions, and change the password.
FIB then coordinates FedInvest training with the new user. When a FedInvest user is terminated,
the Fund Agency uses the same FedInvest Logon-ID Request form as stated above to revoke
access and submits the approved form to FIB, who then terminates the user’s access.
Fund Agency users access FedInvest using their user ID and password. The Fund Agency user
selects the Account Fund Symbol (AFS), date, security type, and investment amount in
FedInvest.
Before Prices Loaded – The FedInvest user may enter investment requests before prices are
loaded in the system for up to 10 business days in the future except for Zero Coupon Bonds and
Special Issue Certificates of Indebtedness. Upon submission of the request, the user receives a
confirmation number which is proof to the customer that their request was accepted. When prices
are loaded by the FIB accountant into the InvestOne accounting system, the FIB accountant uses
the FedInvest RPA module to load the prices into FedInvest, publish them on t he website, and
apply the prices to the pending investment transactions. Once the price has been applied to the
transaction, it is automatically posted to the InvestOne accounting system evidenced by the
replacement of the confirmation number with a memo number on the confirmation available to
the user in FedInvest.
After Prices Loaded – The FedInvest user may enter investment requests after prices are loaded
except for Zero Coupon Bonds. Sin ce FedInvest interfaces with the InvestOne accounting
system, the InvestOne accounting system automatically assigns a memo number and applies the
price/rate. A confirmation of results is available in FedInvest to FedInvest users.
Zero Coupon Bond securities – The FedInvest user must enter investment requests by 11:00 am
EST. FedInvest sends the request by email to the FIB accountants who forward the request to the
U.S. Department of Treasury’s, Office of Debt Management (ODM) for pricing. ODM prices the
purchase of the Zero Coupon Bond at approximately 12:00 pm EST and forwards the results to
FIB by email. The FIB accountant enters the pricing results into the InvestOne accounting
system, posts the transaction, and forwards the memo number to the FedInvest user. A
confirmation of results is available in FedInvest to the FedInvest user.
FIB may receive investment requests via fax, email, or hard copy from Fund Agencies when
necessary. A FIB accountant enters the request into FedInvest or the InvestOne accounting
system on behalf of the Fund Agency. Then two FIB accountants compare the transaction
confirmation to the investment request to ensure the investment request is recorded accurately,
posted to the correct day, and then initial the investment request to document their review. A
confirmation of results is available in FedInvest to the FedInvest user the same day. On the
following business day, a FIB accountant compares the InvestOne report (Prior Day Review) to


                                               9               Description of Controls Provided
                                                               by the Bureau of the Public Debt
the investment requests submitted by the Fund Agency to ensure transactions were properly
entered into the InvestOne accounting system.


Redemption Request Processing
To establish access to FedInvest, the Fund Agency completes a F edInvest Logon-ID Request
form and provides the form to a supervisor for approval. The supervisor reviews and approves
the form and submits the form to FIB. FIB verifies that the information is complete and emails
the IT Service Desk to request that the user be added to Contact Management. Once IT Service
Desk notifies FIB that the user has been added to Contact Management, FIB provides a copy of
the FedInvest Logon-ID Request form to the DSPS ISSRs for user set-up in FedInvest. OIT
provides the new user with their user ID and temporary password and contacts the user to login to
FedInvest with the temporary password, answer security questions, and change the password.
FIB then coordinates FedInvest training with the new user. When a FedInvest user is terminated,
the Fund Agency uses the same FedInvest Logon-ID Request form as stated above to revoke
access and submits the approved form to FIB, who then terminates the user’s access.
Fund Agency users access FedInvest using their user ID and password. The Fund Agency user
selects the AFS, date, inventory method (First-In First-Out (FIFO) or Specific ID), security type,
and redemption amount in FedInvest.
Before Prices Loaded – The FedInvest user may enter Market-based bill, note, bond, and TIPS
redemption requests using the FIFO inventory method before prices are loaded in the system for
up to 10 bu siness days in the future. U pon submission of the request, the user receives a
confirmation number which is proof to the customer that their request was a ccepted. When
prices are loaded by the FIB accountant into the InvestOne accounting system, the FIB
accountant uses the FedInvest RPA module to load the prices into FedInvest, publish them on the
website, and apply the prices to the pending redemption transactions. O nce the price has been
applied to the transaction, it is automatically posted to the InvestOne accounting system
evidenced by the replacement of the confirmation number with a memo number that is also on the
confirmation available to the user in FedInvest.
After Prices Loaded – The FedInvest user may enter Market-based bill, note, bond and TIPS
redemption requests using the FIFO or Specific ID inventory methods after prices are loaded in
the InvestOne accounting system and FedInvest. If Fund Agencies have tax lots (a group of the
same securities purchased on different dates) and decide to apply the specific identification
method rather than the FIFO method to redeem from specific tax lots, Fund Agencies need to
select “Specific ID” inventory method to override the InvestOne accounting system default
setting of the FIFO method, and enter the principal amount to redeem for each tax lot. Since
FedInvest interfaces with the InvestOne accounting system, the InvestOne accounting system
automatically assigns a memo number and applies the price/rate. A confirmation of results is
available on FedInvest to FedInvest users.
Special Issue par-value securities - Special par-value securities have unique redemption rules that
require the InvestOne accounting system to redeem them based on the order of earliest maturity
date, lowest prevailing interest rate, and FIFO. The FedInvest user receives a confirmation with a
confirmation number and a message that the Redemption rules will be applied in accordance with
Treasury Fiscal Policy. The transaction will be pending until after the close of business on the
effective date. At close of business (after 3:00 pm EST) on the effective date of the redemption,
the FIB accountant uses the FedInvest RPA module to run the Post Par Value Sell Transactions
that will process, post, and assign memo numbers to the pending redemption requests in the


                                                 10              Description of Controls Provided
                                                                 by the Bureau of the Public Debt
InvestOne accounting system using the unique redemption rules. A confirmation of results is
available in FedInvest to the FedInvest users.

Zero Coupon Bond securities – The FedInvest user must enter redemption requests into FedInvest
(by 11:00 am EST) and FedInvest sends an email to the FIB accountants who forward the request
to ODM for pricing. O DM prices the redemption of the Zero Coupon Bond at approximately
12:00 pm EST and forwards the results to FIB via email. The FIB accountant enters the pricing
results into the InvestOne accounting system, posts the transaction, and forwards the memo
number to the FedInvest user. A confirmation of results is available in FedInvest to the FedInvest
users.

FIB may receive redemption requests via fax, email, or hard copy from Fund Agencies when
necessary. A FIB accountant enters the request into FedInvest or InvestOne accounting system
on behalf of the Fund Agency. Then two FIB accountants review and initial the redemption
request. A confirmation of results is available in FedInvest to the FedInvest users the same day.
On the following business day, a F IB accountant compares the InvestOne report (Prior Day
Review) to the redemption requests submitted by the Fund Agency to ensure the transactions
were properly entered into the InvestOne accounting system.
FIB obtains and applies open market prices for securities negotiated by brokers and dealers of
government securities from the U.S. Department of the Treasury’s ODM and the Federal Reserve
Bank (FRB) of New York.
FIB functions do not encompass monitoring or determining rates, types and maturities of
government marketable securities. T he Office of Information Technology (OIT) provides
application security (including passwords), processing, and report programming support to FIB
including regular maintenance programming and user-requested program enhancements.
The in-scope BPD functions are shaded in the following organizational chart.




                                                11              Description of Controls Provided
                                                                by the Bureau of the Public Debt
ORGANIZATIONAL CHART




                                                 (BPD)
                                        Bureau of the Public Debt


                 (OIT)                                                    (OPDA)
   Office of Information Technology                                   Office of Public
        IT support for Application Security,                          Debt Accounting
    Application Processing, and Network Support




                     (DSPS)                                                    (DFI)
             Division of Systems and                                    Division of Federal
                Program Support                                            Investments



         (PSB)                      (SSB)                 (TFMB)                      (FIB)
       Program                     Systems               Trust Funds                 Federal
       Support                  Support Branch           Management                Investments
        Branch                                             Branch                    Branch
                                                         Federal Trust Fund             Process
                                                           Management            Investment/Redemption
                                                                                    Requests for Fund
                                                                                 Agencies on InvestOne
                                                                                   Accounting System




                                                  12          Description of Controls Provided
                                                              by the Bureau of the Public Debt
RELEVANT ASPECTS OF THE CONTROL ENVIRONMENT, RISK
ASSESSMENT, AND MONITORING

Control Environment
Operations are primarily under the direction of the Office of the Director of the Division of
Federal Investment (DFI) and the Director of the DSPS, which represent the functional areas
listed below:
    •  Administrative development: Coordinates various aspects of FIB operations.
       Identifies areas requiring internal controls and implements those controls.
       Performs systems planning, development, and implementation. Reviews network
       operations and telecommunications and performs disaster-recovery planning and
       database administration.
    • Fund support: Supports end users (Fund Agencies) in all aspects of their use of
       the application system including research and resolution of identified problems.
     • Operations: Manages daily computer operations, production processing, report
       production and distribution, and system utilization and capacity.
The DFI and DSPS hold bi-weekly management meetings to discuss special processing requests,
operational performance, and the development and maintenance of projects in process. Written
position descriptions for employees are maintained. The descriptions are inspected annually and
revised as necessary.
References are sought and background, credit, and security checks are conducted for all BPD
personnel when they are hired. Additional background, credit, and security checks are performed
every three to five years. The confidentiality of Fund Agency information is stressed during the
new employee orientation program and is emphasized in the personnel manual issued to each
employee. BPD provides a mandatory orientation program to all full time employees and
encourages employees to attend other formal outside training.
All BPD employees receive an annual written performance evaluation and salary review. These
reviews are based on goals and objectives that are established and reviewed during meetings
between the employee and the employee’s supervisor. C ompleted appraisals are reviewed by
senior management and become a permanent part of the employee’s personnel file.
Risk Assessment
BPD has placed into operation a risk assessment process to identify and manage risks that could
affect FIB’s ability to provide reliable transaction processing for users. This process requires
management to identify significant risks in their areas of responsibility and to implement
appropriate measures to manage these risks.
Additionally, all mission-critical systems and general support systems are subject to an internal
risk-based review every three years. This review identifies assets and possible threats to these
assets, provides a measure of vulnerability of the system to these threats, and confirms control or
protective measures are in place.
Monitoring
BPD management and supervisory personnel monitor the quality of internal control performance
as a normal part of their activities. T o assist them in this monitoring, BPD has implemented a
series of “key indicator” management reports that measure the results of various processes
involved in providing transaction-processing services to Fund Agencies. Key indicator reporting
consists of PARS posting summary reports to validate accuracy. Al l exceptions to normal or

                                              13                 Description of Controls Provided
                                                                 by the Bureau of the Public Debt
scheduled processing through hardware and software, or procedural problems are also logged,
reported and resolved daily. These reports are inspected daily and weekly by appropriate levels
of management, and action is taken as necessary.




                                            14                Description of Controls Provided
                                                              by the Bureau of the Public Debt
INFORMATION AND COMMUNICATION

Information Systems
InvestOne Accounting System Description
The InvestOne accounting system is a vendor supplied subsystem of the Government Agency
Investment Services System (GAISS). The InvestOne accounting system is used to record and
report investment fund activity processed by FIB. The InvestOne accounting system is licensed
by SunGard Investment Systems, Inc. (SunGard). The InvestOne accounting system resides on
BPD’s mainframe. OIT provides the primary support for maintaining the InvestOne accounting
system. T his includes mainframe operations (batch processing and reporting), custom report
writing, application change management, data management, tape backup and recovery, user
access security, remote access, and continuity management. The InvestOne accounting system is
accessed through the network using a terminal emulator t hat enables communication with OIT
mainframe applications. The InvestOne accounting system also provides a report writer package
called Spectra that provides users with the ability to create their own reports. FIB uses Spectra to
create reports, which provide functionality not included in the standard InvestOne reports.
FIB also receives supporting documentation/reports on a daily basis from internally-developed
programs created by programmers. These programs read the data from the InvestOne accounting
system and create various reports to assist in FIB’s daily processing. S pecifically, data is
downloaded from the InvestOne accounting system to a data file located on the servers where the
programs execute. Data is not sent from these programs to the InvestOne accounting system.
FedInvest Description
FedInvest, also a subsystem of GAISS, is a vendor-developed, web-based extension to the
InvestOne accounting system that provides access to the federal investments information through
the Internet. FedInvest allows federal investment fund managers to assume direct responsibility
for managing their respective accounts. Using FedInvest, federal agencies are able to input
transactions into the InvestOne accounting system, as wel l as view account statements and
transaction information over the Internet. A dditionally, FedInvest provides an interface to the
InvestOne accounting system for internal fund managers in BPD’s DFI. FedInvest includes edits
that serve to enforce federal investment program policies resulting in improved data quality in the
InvestOne accounting system.
FedInvest also includes two extensions that are available only to BPD internal users. The CRM
module is used by DSPS ISSRs to manage FedInvest users and their access to associated
investment account information. CRM is used by FIB accountants to manage security type and
account information. CRM is also used to create and post broadcast messages (announcements)
that are seen by users signed onto the system, and establish email communication to all system
users and their agency Chief Financial Officers. The RPA module is used by FIB accountants to
load rates/prices, publish rates/prices on the TreasuryDirect website, apply prices to pending
market-based transactions, post pending special issue par-value redemption transactions, and
update FedInvest with the Consumer Price Index (CPI) for processing TIPS transactions.
Communication
BPD has implemented various methods of communication to ensure that all employees
understand their individual roles and responsibilities over transaction processing and controls.
These methods include orientation and training programs for newly hired employees, and use of
electronic mail messages to communicate time sensitive messages and information. Managers
also hold periodic staff meetings as appropriate. E very employee has a written position


                                               15                Description of Controls Provided
                                                                 by the Bureau of the Public Debt
description that includes the responsibility to communicate significant issues and exceptions to an
appropriate higher level within the organization in a timely manner.




                                              16                 Description of Controls Provided
                                                                 by the Bureau of the Public Debt
COMPLEMENTARY FUND AGENCY CONTROLS

BPD’s processing of transactions and the controls over the processing were designed with the
assumption that certain controls would be placed in operation by Fund Agencies. The application
of specific controls at customer organizations is necessary to achieve all control objectives
included in this report.

This section describes some of the controls that should be in operation at user entities to
complement the controls at BPD. Fund Agency auditors should determine whether user entities
have established controls to provide reasonable assurance that:

•   Ensure that access to FedInvest is restricted to properly authorized individuals.

•   Provide applicable legislation to FIB, and any subsequent legislation revisions, that
    authorizes the Fund Agency to invest.

•   Verify the authority to invest prior to submitting investment account set-up and
    investment/redemption requests.

•   Ensure that only authorized personnel sign requests or submit transactions in FedInvest.

•   Ensure that the submission of investment/redemption requests in FedInvest is accurate and
    completed prior to 3:00 pm EST (11:00 am EST for Zero Coupon Bonds).

•   Notify FIB if the investment/redemption requests have been processed incorrectly so that
    correcting transactions may be processed before 3:00 pm EST.

•   Review investment/redemption/maturity/interest confirmations and Monthly Statements of
    Account to ensure that each request was processed accurately, timely, and in accordance with
    Fund Agency instructions.

•   Track investment/redemption confirmations to ensure that the Fund Agency FedInvest user
    correctly processes all requests.

•   Review and reconcile all transaction confirmations to determine that they are accurate and
    complete, and report discrepancies to FIB so that correcting transactions may be processed
    before 3:00 pm EST.

•   Review adjustments and make prompt and appropriate journal entries to the accounting
    records, to adjust the investment account balances and related interest.

•   Review Monthly Statements of Account to verify that adjustments were processed completely
    and accurately.

•   Ensure that the requested investment returns the appropriate amount of interest to meet
    investment income goals.

•   Reconcile interest payments received as p resented in the confirmations and Monthly
    Statements of Account and recalculate interest for accuracy.


                                               17                 Description of Controls Provided
                                                                  by the Bureau of the Public Debt
•   Approve reinvestments of interest after review for accuracy, completeness, and compliance
    with instructions.

•   Recalculate interest accrual and amortization of premium and/or discount and compare the
    results to the BPD provided monthly Accrual Confirmation and Accrual Activity Reports.

•   Report any interest accrual discrepancies noted on the monthly Accrual Confirmation and
    Accrual Activity Reports to BPD for resolution.

•   Report any premium and/or discount amortization discrepancies noted on the monthly
    Accrual Confirmation and Accrual Activity Reports to BPD for resolution.

•   Review FIB provided Monthly Statements of Account to ensure that transactions are recorded
    accurately and timely, and report discrepancies to FIB so correction processes may occur.

•   Reconcile investment activity from Financial Management Service application
    Governmentwide Account Statements to the FIB provided Monthly Statements of Account to
    verify that investment activity is being properly reported by FIB on t he Fund Agencies’
    behalf.

Specific complementary Fund Agency control considerations are provided for Control Objectives
5, 8, 9, 10, 11, 13, 14, and 15 in the Control Objectives, Related Controls, and Tests of Operating
Effectiveness section of this report.




                                              18                 Description of Controls Provided
                                                                 by the Bureau of the Public Debt
SUB-SERVICE ORGANIZATIONS

In order to provide investment/redemption processing services, FIB relies on s ystems and
services provided by other organizations external to BPD (sub-service organizations). These sub-
service organizations are not subject to examination by KPMG LLP. The following table
describes the types of the sub-service organizations used by FIB not subject examination by
KPMG LLP.

  Name of Sub-service Organization                   Function/Responsibilities


                                          On a daily basis, FIB obtains Treasury Price Quote
 Federal Reserve Bank (FRB) of New
                                          files via digital certificate from a secure FRB
 York
                                          website. FIB uses these price quote files to
                                          calculate the market-based security prices that can
                                          be loaded into the InvestOne accounting system
                                          and compared to the price files provided by ODM.
                                          On a daily basis, the ODM provides FIB the daily
 U.S. Department of the Treasury –
                                          security price files for market-based transactions.
 Office of Debt Management (ODM)
                                          Additionally, as needed, ODM provides FIB with
                                          the Zero Coupon Bond pricing. ODM provides
                                          FIB the Daily Market Quotations on Most
                                          Recently Auctioned Treasury Bills used for the
                                          rate for the one-day certificates.
                                         Treasury’s FMS provides daily and monthly reports
 U.S. Department of the Treasury –
                                         to FIB, including IPAC reports, and GWA account
 Financial Management Service (FMS)
                                         statements. FIB uses these reports to verify the
                                         accurate posting of transactions and data.




                                             19                Description of Controls Provided
                                                               by the Bureau of the Public Debt
III.   CONTROL OBJECTIVES, RELATED CONTROLS, AND
           TESTS OF OPERATING EFFECTIVENESS




                      20   Control Objectives, Related Controls, and
                                    Tests of Operating Effectiveness
GENERAL COMPUTER CONTROLS

Control Objective 1 – System Software
Controls provide reasonable assurance that changes to system software are authorized, tested,
approved, properly implemented, and documented.
Description of Controls
The Bureau of the Public Debt (BPD) has documented procedures for the authorization, testing,
approval, implementation, and documentation of system software changes.
The InvestOne accounting system operates within a mainframe environment 1. T he FedInvest
system is operated within a cl ient-server environment 2,3. M ainframe and client-server system
software products are under vendor control for maintenance and support. Upgrades to these
products are obtained from the vendors and installed by the Office of Information Technology
(OIT) specialists.
For system software changes, BPD uses the iET product for change management. All system
software changes (i.e., new product installations, maintenance upgrades, etc.) require a ch ange
record to be opened in iET. A change record can be opened by any specialist in OIT’s division
responsible for effecting such changes or the change control coordinator. The iET change record
includes a description of the change, implementation date of the change, a justification, and a
back-up/back-out plan.
Changes are initially discussed at the weekly change control meetings. At tendees include OIT
representatives impacted by the proposed change. No tification is sent to the assistant
commissioner, division directors, branch managers and/or staff personnel. F ollowing the
meeting, the change control coordinator prepares and distributes the Weekly Change Control
Memorandum with information on changes for the upcoming week. This memorandum describes
the system changes, effective dates, reasons for changes or problems the changes will resolve.
There is also a reference to the iET change control number.
Before system software changes can be moved to production, they are tested in accordance with
the BPD’s system software change control procedures. T hese procedures document the
authorization, testing, approval, implementation, and documentation requirements for system

1
    Which consists of the following system software products:
       •    z/OS Operating System
       •    Customer Information Control System (CICS)
       •    ACF2 Security
       •    Tape Management System (TMS)
       •    Control M and D (Production and Print scheduling)
       •    ETF/A (Emergency Change Control)
       •    MQSeries
       •    DB2
2
    The FedInvest system is composed of the following system software components:
        •    Spring
        •    Hibernate
        •    Java Server Faces
        •    JAVA
        •    Windows Server 2003
        •    Sybase
        •    WebSphere Application Server
3
    Reliant Services:
        •     LDAP access to Enterprise Directory Services
        •     SMTP access to Domino messaging service

                                                                21        Control Objectives, Related Controls, and
                                                                                   Tests of Operating Effectiveness
software changes. Changes progress through various environments, which differ according to the
type of system infrastructure. F or the mainframe, there are three separate environments: test,
acceptance, and production. E ach environment is a logical environment with its own datasets
and libraries. Mainframe changes are first tested by a p rogrammer in the test environment;
moved to acceptance, tested, and then changes are moved to the production environment
following approval. F or changes to distributed software, changes are promoted up t hrough
integration, acceptance, and production regions within similar controls described above.
All changes are reviewed and coordinated at the weekly change control meeting, and approved by
the change control coordinator prior to being moved into the production environment.
All emergency changes follow the same process as indicated above, with the exception that
changes move through the environments at an accelerated rate. Testing and approval of these
changes are documented in iET.
BPD has established a p rocess that allows system programmers and database administrators to
have temporary access to the Production mainframe environment through the use of a “fire-call”
ID product that allows them elevated privileges for system software and application changes.
The operating system is configured to monitor and log such activity for review and approval by
management; management reviews these logs within a r easonable timeframe after the use of
"fire-call".
OIT reviews the use of sensitive system utilities included in the protected programs group on a
weekly basis and limits access to these programs based on job responsibility.

Tests of Operating Effectiveness and Results of Testing

1. Inspected written procedures for system software configuration management and determined
   that procedures were documented, including procedures to document, test, authorize, and
   approve system software changes, and properly implement changes into production.

2. Inspected the emergency system software change procedures and determined that procedures
   for implementing emergency system software changes were documented, including approval
   by management.

3. Inspected vendor maintenance support contracts for system software and determined that the
   contracts existed and were current.

4. For a selection of system software change records, inspected iET tickets and determined that
   iET was used throughout the examination period to log, track, and monitor system software
   changes.

5. For a sel ection of dates, inspected Weekly Change Control Memorandums and determined
   that weekly change control meetings were held to discuss planned changes with the potential
   to impact the InvestOne accounting system or FedInvest application system software.

6. For a sel ection of system software changes and emergency system software changes,
   inspected supporting documentation and determined that the changes were tested, authorized,
   and approved prior to implementation.

7. Inspected a list of users with access to use fire-call and determined that the list was
   commensurate with job responsibilities.



                                            22        Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
8. For a selection of days, inspected fire-call logs and evidence of review, and determined that
   fire-call logs were reviewed by OIT management.

9. For a selection of weeks, inspected evidence of OIT’s review of reports for sensitive system
   utilities in the protected programs group and determined that the reports were reviewed.

No exceptions noted.




                                             23       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 2 – Vendor Software
Controls provide reasonable assurance that implemented new releases of vendor-supplied
applications are authorized, tested, approved, properly implemented, and documented.
Description of Controls
BPD has documented procedures for the testing and authorization of new releases of vendor
supplied applications. The change control process is under the control and direction of the Office
of Public Debt Accounting (OPDA).
The InvestOne accounting system is licensed by SunGard Investment Systems, Inc (SunGard).
BPD has a maintenance and support contract for the InvestOne accounting system with SunGard.
OIT is responsible for of all maintenance and support of the FedInvest system.
SunGard periodically provides new releases of the InvestOne accounting system, including
documentation. Each new release requires comprehensive testing. The Division of Systems and
Program Support (DSPS) tests the new InvestOne accounting system releases developed by
SunGard consistent with change control procedures for OPDA systems. New I nvestOne
accounting system releases are installed in the Test environment where they are initially tested.
After successful completion of testing, OIT migrates the InvestOne accounting system new
release to the Acceptance environment, where it is subjected to acceptance testing by users. OIT
only installs an InvestOne accounting system new release in the Production environment after all
testing has been successfully completed and management has approved the InvestOne accounting
system new release for implementation in the Production environment. BPD loaded InvestOne
version 9.1 in December 2010.
In addition to new releases, SunGard will periodically provide fix tapes for the InvestOne
accounting system. F ix tapes, which address certain InvestOne accounting system issues, are
narrower in scope than new releases. Based on what changes a particular fix tape includes, BPD
management will decide whether or not to implement the fix tape. If BPD management decides
to implement the fix tape, the fix tape is migrated through the Test and Acceptance environments.
Fix tapes are installed in the Production environment only after successful completion of testing
in the Test and Acceptance environments and management approval for migration into the
Production environment.
DSPS also tests changes to the InvestOne accounting system application reports, developed by
SunGard Investment Systems, Inc. using the same change control procedures described above.
In addition, BPD uses the version control software to manage the upgrades and enhancements.
Changes are only migrated into the production environment once all responsible parties approve
the change in the version control software. A ccess to migrate changes via the version control
software is limited based on job responsibility.

Tests of Operating Effectiveness and Results of Testing

1. Inspected procedures for the implementation of new releases of vendor supplied applications,
   and determined that they were documented and included requirements for authorization,
   testing, documentation, and approval.

2. Inspected vendor maintenance support contracts for the InvestOne accounting system
   software and determined that the contracts existed and were current.

3. For new InvestOne releases, inspected supporting documentation and determined that the
   releases were tested, approved, properly implemented and documented.

                                              24       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
4. For fix tapes implemented during the examination period, inspected documentation of test
   results and approvals for implementation and determined that the fix tapes had been tested
   and approved prior to implementation into production.

5. Inspected version control software access permissions and determined that access
   permissions to migrate changes to the production environment were restricted commensurate
   with job responsibilities.

No exceptions noted.




                                           25       Control Objectives, Related Controls, and
                                                             Tests of Operating Effectiveness
Control Objective 3 – Program Change Control
Controls provide reasonable assurance that development of new applications and changes to
existing applications are authorized, tested, approved, properly implemented, and documented.
Description of Controls
BPD has documented procedures for the authorization, testing, approval, implementation, and
documentation of application software changes. The application change control process is under
the control and direction of OPDA.
SunGard has custom built additional application components for data entry and reporting.
Included is the FedInvest application, which functions as a web -based user interface that Fund
Agencies can use for entering transactions into the InvestOne accounting system. For reporting,
BPD has built internally-developed programs utilizing RM (desktop) COBOL and mainframe
COBOL that generate customized reports to provide information unavailable in the standard
InvestOne accounting system reporting package.
For RM COBOL, OIT uses a version control software 4 to control access to source code for these
internally-developed programs and to facilitate version control by requiring developers to check
source code in and out using version control software. T hese programs read the data from the
InvestOne accounting system and create reports. S pecifically, data is downloaded from
InvestOne accounting system, using standard processes, to a data file on the mainframe then via
ftp to the servers where the programs execute. Data is not sent from these programs to the
InvestOne accounting system. The reports are used by the trust fund managers, sent to Fund
Agencies, or sent to U.S. Department of Treasury’s Financial Management Service, the Office of
Debt Management and Office of Fiscal Projection. T he Congressional Budget Office also
receives reports generated from the InvestOne accounting system.
For mainframe COBOL, OIT uses a version control software 5 to control access to source code for
these internally-developed programs and to facilitate version control. These programs were
developed by OIT and reside on the mainframe, where these programs execute.
For FedInvest and customized reports, OIT uses a version control software 6 to control access to
source code for the vendor supplied and BPD managed programs to facilitate version control.
Changes to FedInvest were developed by SunGard between August 1, 2008 and September 30,
2008 and by OIT between October 1, 2008 and July 31, 2009.
DSPS provides support for the design and testing of the above changes. DS PS creates the
requirements documentation, which is then provided to OIT (or SunGard) for development.
DSPS manages the request, documentation, testing, and approval process using a Change Control
Checklist and iET.
Changes using version control software progress through four separate environments: Test
Integration, Acceptance, and Production. A ch ange is first tested by the programmer in the Test
or Integration environment. It is then migrated to the Acceptance environment where a user tests
the change using example transactions and Acceptance environment files and libraries.
Each change is reviewed by the user groups that are affected by the change, and each group
provides user concurrence that they accept the change. Following user concurrence, a senior staff
member reviews the testing materials and completes the Change Control Checklist indicating that


4
  Microsoft Visual Source Safe
5
  Endevor
6
  ClearCase

                                             26        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
testing has been completed. T he package is provided to the DSPS Branch Manager for final
review and approval.
Once the DSPS Branch Manager approves the change, DSPS sends a Network Services Request
to OIT to move the change into the Production environment. Upon notification of an accepted
change, OIT creates an update package in version control software. Only approved changes are
installed in the Production environment.
For mainframe COBOL, the version control software is an application through which users
approve changes. This version control software is also used to move changed program files into
the Production environment. This version control software will not allow changes to be migrated
from the Acceptance environment into production until the changes have been approved. Access
to migrate changes to Production via the version control software change control software is
limited based on job responsibility.

Tests of Operating Effectiveness and Results of Testing

1. Inspected application software change procedures and determined that they were documented
   and included requirements for authorization, testing, documentation, and approval.

2. Inspected the access permissions and inquired of OIT management and determined that
   access to source code for internally-developed programs was commensurate with job
   responsibilities.

3. Inspected the access control lists for FedInvest and customized reports version control
   software and determined that access to the source code for FedInvest was commensurate with
   job responsibilities.

4. Inspected a selection of change records in iET and determined that iET was used throughout
   the examination period to log, track, and monitor application software changes.

5. For a selection of application software changes, inspected supporting documentation and
   determined that the changes were tested and approved.

6. Inspected version control software access permissions and determined that access
   permissions to migrate changes to the production environment were restricted commensurate
   with job responsibilities for mainframe COBOL and FedInvest.

No exceptions noted.




                                            27        Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 4 – Physical Access
Controls provide reasonable assurance that physical access to computer equipment and storage
media is restricted to authorized individuals.
Description of Controls
BPD has documented policies and procedures for controlling physical access to BPD buildings
and to the data center. These include:
     •     Identification of sensitive/critical areas to which access needs to be restricted.
     •     Physical access controls designed to detect unauthorized access.
     •     Procedures for log reviews and investigation of violations.
The InvestOne accounting system mainframe and FedInvest servers reside in OIT’s data center.
Various physical access controls protect the facilities. 7
The Security Branch issues employee badges, after performing security background checks and
fingerprinting.
Employees are required to have badges available at all times upon request.
Terminated employees are required to surrender identification badges and are removed from the
database security system immediately.
Physical access to the OIT Data Center is restricted to authorized users only. An employee
needing access to the data center must have his/her Branch Manager request access. The requests
are made through iET, a workflow system that is used to approve data center access. After the
Branch Manager completes and submits the iET request form, requests are forwarded to OIT's
data center managers for approval in the iET. If OIT approves the request, the BPD Division of
Security and Emergency Preparedness (DSEP) Security Branch grants access. Acces s to all
sensitive areas requires use of a badge. The use of a badge provides an audit trail that is reviewed
by OIT management monthly for potential access violations. Any unauthorized access attempts
are followed-up on by contacting the individual’s supervisor. Individuals without badge access to
the data center must be escorted to the command center and are required to sign in/out of a Visitor
log to be issued a data center visitor badge. Visitor badges do not have access to the data center,
but rather designate the individual as a visitor. A visitor log is maintained at the main entrance to
the data center. 8
OIT performs a monthly review of individuals’ access patterns of the data center for the previous
month. OIT performs a semiannual reconciliation of individuals authorized data center access to
individuals granted data center access by DSEP. A dditionally, OIT performs an annual review
and recertification of individuals with access to the data center. If an individual is found to have
unauthorized data center access, OIT will, based on the individual’s need for access, make a
decision whether to request that DSEP remove their data center access or whether to provide
authorization for their access.



7
  Armed security guards man and monitor BPD facilities 24 hours a day, 7 days a week. A digital video camera system monitors all
entrances, the building perimeter, and certain interior areas, including the data center, and records activity 24 hours a day. All people
entering each building are required to place any materials, packages, bundles, etc. onto an x-ray machine. Entrants are also required to
pass through a walkthrough metal detector. An activation of the walkthrough metal detector results in further screening by the
security guard, utilizing a handheld metal detector to identify the source of activation. In addition, entrants must swipe their badges
into an access control system that grants access to authorized personnel.
8
  Only designated DSEP specialists have access to PACS. Vendors that are authorized to have a badge are issued a One-day badge
and must leave their access badge onsite following completion of work in the data center. A log of One-Day badges is maintained and
reviewed weekly .

                                                                28            Control Objectives, Related Controls, and
                                                                                       Tests of Operating Effectiveness
Tests of Operating Effectiveness and Results of Testing

1. Inspected physical access policies and procedures for the data center and determined that they
   were documented and included the identification of sensitive/critical areas to which access
   needs to be restricted, physical access controls designed to detect unauthorized access, and
   procedures for log reviews and investigation of violations.

2. Observed physical access controls of BPD buildings and the OIT data center and noted that
   security guards, video cameras, badge readers, displayed badges by employees, and locked
   doors were in place and in operation to restrict access.

3. Observed persons entering BPD buildings and noted that persons were required to place any
   materials, packages, bundles, etc. onto an x-ray machine, and additionally were required to
   pass through a walkthrough metal detector.

4. Observed persons entering BPD buildings and noted that an activation of the walkthrough
   metal detector resulted in further screening by the security guard, utilizing a handheld metal
   detector to identify the source of activation.

5. Observed entrants swipe their badges into the access co ntrol system and noted that the
   controls system granted access to authorized personnel.

6. For a sel ection of new personnel granted data center access, inspected supporting
   documentation and determined that access badges were issued to personnel with a completed
   background check and fingerprinting.

7. Observed employees within the BPD buildings and noted that badges were displayed.

8. Inspected the data center access list and compared to a l ist of separated employees and
   determined that separated employees were removed from the badge reader system.

9. Inspected a list of employees with card key access to the data center and tape storage room
   from the card security system and an OIT phone list showing employees requiring access to
   the data center and tape storage room and determined that physical access to the OIT data
   center was restricted to authorized employees only.

10. For a s election of employees and contractors granted access to the data center during the
    examination period, inspected the iET record for the access granted and determined that
    access was approved by the data center manager.

11. Inspected permissions to access the PACS badge system of BPD security management, and
    determined that access permissions to the physical access systems were commensurate with
    job responsibilities.

12. For a selection of months, inspected evidence of the monthly review of violation logs and
    determined that a r eview to identify unauthorized access attempts was performed and
    violations were followed-up on.

13. For a selection of dates, inspected visitor logs and determined that visitor logs were reviewed
    by OIT management.



                                              29        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
14. For a selection of days, inspected shift logs and determined that an inventory of vendor
    badges was performed.

15. Inspected documentation of the monthly review of physical access privileges to the data
    center and determined that access privileges were reviewed.

16. Inspected documentation of the annual recertification of physical access privileges to the data
    center and determined that access privileges were recertified.

No exceptions noted.




                                              30        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Control Objective 5 – Logical Access
Controls provide reasonable assurance that logical access to system and application software is
restricted to authorized individuals.
Description of Controls
BPD has guidelines for the preparation of security plans for applications and systems that process
Sensitive but Unclassified information. All mission-critical systems and general support systems
are subject to an internal risk-based review every three years. This review identifies assets and
possible threats to these assets, provides a measure of vulnerability of the system to these threats,
and confirms control or protective measures are in place.
The InvestOne accounting system is classified as a mission-critical system.
InvestOne accounting system security along with the host mainframe’s security package controls
access to the InvestOne accounting system. InvestOne accounting system security restricts access
to accounts within the system based on user banks and user identification (UID). I nvestOne
accounting system access is restricted to authorized personnel. T he security settings are also
used to restrict OIT personnel’s access to system software, data files, and program libraries.
FedInvest is a web-based user interface through which users have access to enter transactions into
and view InvestOne accounting system data. External users are limited to accessing InvestOne
accounting system data through FedInvest. E xternal users that invest in Government Account
Series (GAS) securities are able to connect to FedInvest over the Internet to input transactions
into the InvestOne accounting system as well as to view account statements and transaction
information.
Administrator access permissions are allocated in the FedInvest and the InvestOne accounting
system users commensurate with their job responsibilities.
OPDA follows BPD system administration security password guidelines/procedures to establish
and maintain passwords. 9 Passwords are not displayed when entered. The reserved word feature
is enabled to prevent the use of commonly used words in passwords.
Information System Security Representatives (ISSRs) manage access to the InvestOne accounting
system. Users must complete and submit an Access Request/ Revoke Form to the Division of
Federal Investments (DFI) who approves the form and forwards to DSPS before access is
granted. DFI personnel authorize the form and forward to OPDA ISSRs to process the request.
DSPS has documented procedures for granting access. Modifications to user accounts require use
of the same Access Request/Revoke Form.
External users must have their supervisor’s approval along with DFI approval documented on an
Access Request/Revoke form before access is granted to FedInvest. W hen an external user
accesses InvestOne accounting system data, they enter a u ser ID and password into FedInvest.
User IDs are authenticated by a security utility 10. If the required authentications failed, the user
would be prevented from accessing InvestOne accounting system data through FedInvest.
ISSRs remove FedInvest and InvestOne accounting system access from users at the request of
their managers/supervisors or FIB personnel. Each access removal request is documented on an
Access Request/Revoke Form.



9
  These guidelines require passwords to be at least 8 characters in length, changed every 30 days for ACF2 and every 90 days for
LDAP, and unique for each individual.
10 BPD's standard authentication utility, BPDLogin, is used to authenticate users. User credentials are stored in BPD's enterprise
directory.

                                                               31            Control Objectives, Related Controls, and
                                                                                      Tests of Operating Effectiveness
On a r outine basis, ISSR reviews Internal Violations Reports for any inappropriate activity;
follow-up is notated on the report.
Additionally, on a periodic basis an ISSR reviews a report of all InvestOne accounting system
user IDs that have not been used to access InvestOne accounting system within a predetermined
number of days 11. The ISSR follows up with any affected users by email or by phone.
Additionally, OPDA recertifies access to mission critical systems by verifying access privileges
for all InvestOne accounting system and FedInvest users. DS PS ISSRs remove or modify any
user IDs or access privileges identified for deletion or changes by the user’s manager/supervisor
or DFI personnel when accompanied by a revoke form.

Complementary Fund Agency Controls

Fund Agencies should establish controls to:

•       Ensure that access to FedInvest is restricted to properly authorized individuals.

Tests of Operating Effectiveness and Results of Testing

1. Inspected the relevant Certification and Accreditation (C&A) of the InvestOne accounting
   system and FedInvest systems and determined that the system had been authorized to operate.

2. Inspected the InvestOne accounting system and FedInvest risk assessment and determined
   that a risk assessment was performed.

3. Inspected the InvestOne accounting system and FedInvest security plan and determined that
   the plan was documented.

4. Observed a user log into the InvestOne accounting system and the FedInvest system and
   noted that their access was restricted in accordance with the system configuration.

5. For each new InvestOne accounting system user, compared access granted to an OPDA
   Organization Chart and determined that access privileges were commensurate with job
   responsibilities.

6. Inspected security guidelines and procedures for InvestOne accounting system and FedInvest
   and determined that logical access procedures were documented.

7. Inspected a list of users with administrator access privileges to InvestOne accounting system
   and FedInvest and determined that access was limited commensurate with job
   responsibilities.

8. Inspected an OPDA Organizational Chart and determined that administrator access was
   commensurate with job responsibilities.

9. Inspected security guidelines and procedures for InvestOne accounting system and FedInvest
   and determined that logical access controls procedures were documented.




11
     A list of InvestOne users that have not logged into InvestOne with 45 days or more is reviewed monthly.

                                                                 32           Control Objectives, Related Controls, and
                                                                                       Tests of Operating Effectiveness
10. Inspected password settings for InvestOne accounting system and FedInvest and determined
    that password length, complexity, and expiration settings were configured in accordance with
    BPD requirements.

11. Observed a user log into InvestOne accounting system and FedInvest and noted that their
    password was masked as they entered it.

12. For a selection of new InvestOne users, inspected documented user access request forms and
    determined that access was authorized by FIB and the user’s supervisor.

13. For a selection of new FedInvest users, inspected documented user access request forms and
    determined that access was authorized by FIB and the user’s supervisor.

14. Inspected a l ist of all separated and transferred BPD employees and lists of InvestOne
    accounting system and FedInvest user IDs and determined that access to InvestOne
    accounting system and FedInvest had been revoked for terminated and transferred BPD
    employees.

15. For a sel ection of weeks, inspected reports listing InvestOne accounting system security
    administrator actions entered into the system and determined that the reports were reviewed
    by an ISSR and any exceptions were followed-up.

16. For a selection of weeks, inspected ACF2 InvestOne accounting system audit log reports and
    evidence of review, and determined that the reports were reviewed by an ISSR and any
    exceptions were followed-up.

17. For a selection of months, inspected evidence of review and removal of inactive accounts and
    determined that inactive user accounts were reviewed and removed on a monthly basis.

18. Inspected documentation of the review and recertification of internal InvestOne accounting
    system and FedInvest user access and determined that internal InvestOne accounting system
    and FedInvest user access were reviewed and recertified.

19. For a sel ection of external FedInvest users, inspected documentation of the review and
    recertification of external FedInvest user access and determined that external FedInvest user
    access were reviewed and recertified.

20. For a selection of user account recertification reviews requesting removal of user access
    privileges, inspected InvestOne accounting system and FedInvest user lists, and determined
    that requested modifications were made.

No exceptions noted.




                                             33        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 6 – Computer Operations
Controls provide reasonable assurance that computer processes are scheduled appropriately and
deviations are identified and resolved.
Description of Controls
The InvestOne accounting system is an interactive mainframe system with master data files that
are updated when entries are posted. End-of-day processes perform maintenance to the data
files and data backups. OIT support personnel complete the Production Control Daily Checklist
to verify the successful completion of end-of-day processes. Data entry error checking and input
screen designs help ensure that the data entered by the users is accurate and complete. The error
checks include verification of entered data based on predetermined values and ranges. Errors
detected by the system are rejected immediately and must be corrected before the transaction is
permitted to update the master data tables.
Daily user operations procedures are posted for the InvestOne accounting system to provide
operators with the information necessary to sequentially complete daily processing. Additionally,
a monthly calendar is posted that highlights the daily requirements. T he InvestOne accounting
system configuration requires that daily reporting be performed in sequence before transaction
processing can begin. OIT completes the Production Control Monthly Checklist to verify the
successful completion of end-of-month processes.
The mainframe job scheduler software controls the scheduling of batch jobs for the InvestOne
accounting system. The job scheduler allows all programs for batch processing, printing and data
backup to be scheduled and performed automatically. Access to the job schedules is limited to
OIT support personnel and privileges are commensurate with job responsibilities. T he job
scheduler sends messages confirming successful completion of each day’s scheduled jobs to OIT
and DSPS. Any abends are also communicated to the appropriate OIT and OPDA personnel as
they happen through automated messages. Abends are resolved and jobs are restarted as
necessary through the job scheduler.

Tests of Operating Effectiveness and Results of Testing

1. For a selection of dates, inspected Production Control Daily Checklists and determined that
   the checklists were used during processing.

2. Inspected screenshots taken during the observation of the entry of transactions into the
   InvestOne accounting system and determined that error checking edits prevented users from
   entering values of the wrong data type or values not on lookup lists.

3. Inspected posted daily user operations for InvestOne accounting system and FedInvest, the
   FIB Daily Procedures, and the monthly requirements calendar and determined that these
   schedules and procedures were available.

4. For a selection of months, inspected the monthly requirements calendars and determined that
   these schedules were available.

5. For a selection of months, inspected Production Monthly Checklists and determined that the
   checklists were used during month-end processing.

6. Inspected the InvestOne accounting system job schedule and determined that a job production
   schedule for the InvestOne accounting system was documented.


                                             34        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
7. Inspected privileges of individuals granted access to make modifications to schedules and job
   control language for production jobs in the mainframe job scheduler and inquired of
   management regarding job responsibilities, and determined that access privileges were
   limited commensurate with job responsibilities.

No exceptions noted.




                                             35       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 7 – Network Performance Monitoring
Controls provide reasonable assurance that network performance monitoring techniques are
implemented appropriately.
Description of Controls
Users must be connected to the BPD network to access the InvestOne accounting system.
Additionally they must run terminal emulation software to connect to the mainframe
environments. Network performance and availability is monitored by OIT at all times. 12

Tests of Operating Effectiveness and Results of Testing

1. Observed OIT Command Center staff and noted that monitoring tools were used to monitor
   the performance and availability of BPD networking equipment, such as switches and
   firewalls.

2. Observed OIT Command Center staff and noted that tools were used to monitor the
   performance and availability of the FedInvest website.

3. Inquired of management and were informed that the OIT Command Center was staffed 24
   hours a day.

No exceptions noted.




12
   Using the following utilities:
A combination of monitoring tools (ManageEngine OP M anager, HP Sitescope, and NetIQ) are used to monitor networking
equipment such as switches and firewalls. These tools automatically report any network equipment or application outages to the
Network Operations Center.

                                                           36          Control Objectives, Related Controls, and
                                                                                Tests of Operating Effectiveness
INVESTMENT/REDEMPTION PROCESSING CONTROLS

Control Objective 8 – Item Processing Security

Controls provide reasonable assurance that an authorized investment authority is established prior
to processing investment requests.

Description of Controls

The Office of the Fiscal Assistant Secretary (OFAS) prepares the Department of the Treasury
Operating Circular (Operating Circular) that communicates the policies and procedures regarding
the government accounts on the books of the Treasury that the Secretary of the Treasury has been
authorized or directed by l aw to invest. The Operating Circular describes the government
investment account responsibilities that the Treasury has, and the fiscal responsibility the Fund
Agencies have for the use of the invested funds.

The Operating Circular also describes the process for how Treasury issues approval of the Fund's
investment authority. FIB creates new investment accounts in the InvestOne accounting system
that will be available in FedInvest after FIB receives confirmation that the BPD Chief Counsel’s
office and Assistant General Counsel for Banking and Finance completed the legal review of the
Fund’s investment authority or receives a completed Memorandum of Understanding (MOU)
between Treasury's OFAS and the Fund Agency.

BPD Chief Counsel’s office maintains records concerning all legal matters with regards to new
and existing investment funds.

Complementary Fund Agency Controls

Fund Agencies should establish controls to:

•   Provide applicable legislation to FIB, and any subsequent legislation revisions, that
    authorizes the Fund Agency to invest.

•   Verify the authority to invest prior to submitting investment account set-up and
    investment/redemption requests

•   Ensure that only authorized personnel sign requests or submit transactions in FedInvest.

Tests of Operating Effectiveness and Results of Testing

1. For a n ew account creation, observed FIB personnel process the account request and
   determined that FIB approved the investment account and obtained authorized investment
   authority in accordance with the documented procedures.

2. For a selection of investment accounts created during the examination period, inspected
   documentation of approval from Treasury for their creation and determined that approval
   from Treasury was received prior to the creation of investment accounts.

No exceptions noted.




                                              37       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 9 – Item Capture

Controls provide reasonable assurance that investment and redemption requests are processed and
recorded accurately and prepared in a timely manner.

Description of Controls

Fund Agencies log on to FedInvest to enter their investment and redemption requests prior to the
3:00 pm EST deadline (11:00 am EST for Zero Coupon Bonds). Investment options include: (1)
Market-based bills, notes, bonds, Treasury Inflation Protected Securities (TIPS); (2) One-day
certificates; (3) special issue par-value securities for agencies with proper legislative authority;
and (4) Zero Coupon Bonds. Procedures for processing investment and redemption requests by
FIB accountants on behalf of the Fund Agency are documented for each type of transaction. For
new market-based securities auctioned by Treasury, FIB accountants manually set up the new
securities with a C ommittee on Uniform Securities Identification Procedures (CUSIP) number
assigned by the Treasury into the InvestOne accounting system. Zero Coupon Bond securities are
manually set up by FIB accountants with a C USIP number assigned by the Treasury into the
InvestOne accounting system only when an investment request is received by the agency. One-
day and special issue par-value securities are also set-up by an FIB accountant; however, the FIB
accountant assigns a security number based on the security name and date of issue instead of a
CUSIP number. Another FIB accountant reviews the set-up of a new security to ensure that they
are accurately recorded.

When necessary, a Fund Agency can send investment/redemption requests by fax, email, or hard-
copy to FIB for processing on t heir behalf. T o ensure that the Fund Agency’s
investment/redemption requests are suitable and have been entered correctly into the system, two
FIB accountants review and initial each request, in addition to the accountant who entered the
transaction into the FedInvest or InvestOne accounting system. The FIB accountants inspect the
requests to ensure that they include: name of fund, account symbol, date of request, amount, type
of security to invest/redeem, and authorized signature of the Fund Agency manager or authorized
agent. I f the requests do not contain the required information, the FIB accountants contact the
Fund Agency to obtain the required information. Investment/redemption requests are processed
as of the date on the requests.

Market-based securities – Office of Debt Management (ODM) provides FIB daily security price
files for the market-based securities. These price files are calculated by ODM using Federal
Reserve Bank (FRB) of New York Treasury Price Quote files. FIB accountants perform daily
procedures to ensure the accuracy of the prices and for contingency planning in the event that
ODM price files are unavailable to FIB. FIB accountants obtain the FRB of New York Treasury
Price Quote files from a secure website using a digital certificate. The FIB accountant runs a
desktop COBOL program that uses the FRB of New York prices to calculate and prepare market-
based price files that can be loaded into the InvestOne accounting system. The desktop COBOL
program also compares the calculated prices to the prices contained in the ODM files producing
an exception report of any differences. I n addition, an FIB accountant performs a yield curve
comparison to check for significant variances from the composite Bloomberg generic pricing
source obtained from the Bloomberg terminal. The FIB accountant notifies ODM of any price
differences on the exception report and unusual variances identified from the yield curve
comparison, if any, and ODM provides FIB with certification of any necessary price corrections
via email. The FIB accountant loads the market-based prices into the InvestOne accounting
system and FedInvest by approximately 1:00 pm EST.


                                               38       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Overnight Rates (One-day securities) – ODM provides FIB the daily rate for the one-day
certificates in an email of daily market bid quotations on most recently auctioned Treasury bills.
The one-day rate is the prior day's coupon equivalent of the shortest regularly issued Treasury
security, currently the 4 week bill. Each morning, an FIB accountant enters the overnight interest
rate for the one-day security into the InvestOne accounting system and FedInvest and through
August 20, 2010, a second FIB accountant compared the InvestOne accounting system security
definition screens and the FedInvest screen to the ODM email received to ensure the rate was
recorded accurately. Beginning August 23, 2010, two FIB accountants compare the InvestOne
accounting system security definition screens and the FedInvest screen to the ODM email
received to ensure the rate was recorded accurately.

Special issue par-value securities – On the first business day of each month, an FIB accountant
creates the special issue par-value securities in the InvestOne accounting system and FedInvest
using the rates provided by the Division of Accounting Operations (DAO) Principal and Interest
Accounting Team (PIAT). PIAT prepares the rates for submission to FIB using rates provided by
ODM and the average auction results of Treasury securities as sp ecified in the pertinent
legislation. Once the special issue par-value security rates are compiled, they are submitted to the
PIAT team lead for review. The team lead reviews the rates prior to submission to FIB by
comparing the rates on the form for submission to the rates obtained from ODM and the security
auction results tables. Once the securities have been created in the InvestOne accounting system
using the rates obtained from PIAT, the FIB accountant runs a report from the FIB Menu (a
COBOL collection of desktop programs) to create a report showing values from the InvestOne
accounting system security definition screens and compares them to the rates provided by PIAT
to ensure that the rates are recorded accurately and documents the review by initialing the rate
sheet that was provided by PIAT.

Zero Coupon Bond securities - ODM provides the Zero Coupon Bond pricing on an as needed
basis. Currently, only two Fund Agencies invest in Zero Coupon Bonds. FIB receives the Fund
Agency instructions for the purchase/redemption of Zero Coupon Bonds through a FedInvest
email notification. A Fund Agency must enter Zero Coupon Bond purchase requests into
FedInvest prior to 11:00 am EST on the desired date. On ce the purchase request has been
entered, FedInvest sends an automated email to the FIB accountants and the FIB accountants
forward the request to ODM for pricing. ODM prices the transaction at approximately noon and
provides the pricing data to FIB. A FIB accountant enters the applicable pricing data and posts
the requested transaction in InvestOne accounting system. Two other FIB accountants compare
the pricing information from the InvestOne accounting system to the pricing data received from
ODM to ensure the pricing is accurately recorded. A confirmation is available in FedInvest to the
FedInvest user. The preparer and reviewing FIB accountants initial the supporting documentation
for the transaction to document their review.

Fund Agencies that have not authorized FIB to process investment transactions on t heir behalf
need to purchase new one-day securities each day using FedInvest (their investments are not
automatically rolled over). If an Agency cannot access FedInvest, the agency must request the
investment via email, fax, or hard copy. FIB accountants process these overnight transactions as
instructed.

Investment Request Processing

To establish access to FedInvest, the Fund Agency completes a FedInvest Logon-ID Request
form, which is signed by a supervisor at the Fund Agency. FIB verifies that the information is
complete, then emails the IT Service Desk to request that the user be added to Contact

                                               39       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Management. On ce the IT Service Desk notifies FIB that the user has been added to Contact
Management, FIB provides the user form to the DSPS ISSRs for user set-up in FedInvest. OIT
provides the new user with their user ID and temporary password and contacts the user to login to
FedInvest with the temporary password, answer security questions, and change the password.
FIB then coordinates FedInvest training with the new user. When a FedInvest user is terminated,
the Fund Agency uses the FedInvest Logon-ID Request form to revoke access and submits the
approved form to FIB. FIB then terminates the user’s access.

Fund Agency users access FedInvest using their user ID and password. The Fund Agency user
selects the Account Fund Symbol (AFS), date, security type, and investment amount in
FedInvest.

Before Prices Loaded – The FedInvest user may enter investment requests before prices are
loaded in the system for up to 10 business days in the future except for Zero Coupon Bonds and
Special Issue Certificates of Indebtedness. Upon submission of the request for future dated
market-based and TIPS securities, the user receives a confirmation number, which is proof to the
customer that their request was accepted. When prices are loaded by the FIB accountant into the
InvestOne accounting system, the FIB accountant uses the FedInvest RPA module to load the
prices into FedInvest, publish them on the website, and apply the prices to the pending investment
transactions. Once the price has been applied to the transaction, it is automatically posted to the
InvestOne accounting system and the confirmation number is replaced with a memo number that
is also on the confirmation available to the user in FedInvest.

For future dated one-day investments, the user receives the memo number immediately. Once the
one-day rate has been loaded into InvestOne accounting system/FedInvest for the effective date
of the investment, a confirmation of results with rate information will be available in FedInvest to
the FedInvest user.

After Prices Loaded – The FedInvest user may enter investment requests after prices are loaded
into the InvestOne accounting system, except for Zero Coupon Bonds. Since FedInvest interfaces
with the InvestOne accounting system, the InvestOne accounting system automatically assigns a
memo number and applies the price/rate. A confirmation of results is available in FedInvest to
FedInvest users.

Zero Coupon Bond securities – The FedInvest user may enter investment requests by 11:00 am
EST. FedInvest sends the request by email to the FIB accountants who forward the request to
ODM for pricing. ODM prices the purchase of the Zero Coupon Bond at approximately 12:00
pm EST and forwards the results to FIB by email. The FIB accountant enters the pricing results
into the InvestOne accounting system, posts the transaction, and forwards the memo number to
the FedInvest user. A confirmation of results is available in FedInvest to the FedInvest user.

FIB may receive investment requests via fax, email, or hard-copy from Fund Agencies when
necessary. A FIB accountant enters the request into FedInvest or InvestOne accounting system
on behalf of the Fund Agency. Then two FIB accountants compare the transaction confirmation
to the investment request to ensure the investment request is recorded accurately, posted to the
correct day, and then initial the investment request to document their review. A confirmation of
results is available in FedInvest to the FedInvest user the same day.

On the following business day, a F IB accountant compares the InvestOne report (Prior Day
Review) to the investment requests submitted by the Fund Agency to ensure transactions were


                                               40       Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
properly entered into the InvestOne accounting system. The FIB accountant documents this
review by initialing the investment request.

Redemption Request Processing

To establish access to FedInvest, the Fund Agency completes a FedInvest Logon-ID Request
form, which is signed by a supervisor at the Fund Agency. FIB verifies that the information is
complete then emails the IT Service Desk to request that the user be added to Contact
Management. On ce the IT Service Desk notifies FIB that the user has been added to Contact
Management, FIB provides a copy of the FedInvest Logon-ID Request form to the DSPS ISSRs
for user set-up in FedInvest. OIT provides the new user with their user id and temporary
password and contacts the user to login to FedInvest with the temporary password, answer
security questions, and change the password. FIB then coordinates FedInvest training with the
new user. When a FedInvest user is terminated, the Fund Agency uses the FedInvest Logon-ID
Request form to revoke access and submits the approved form to FIB. FIB then terminates the
user’s access.

Fund Agency users access FedInvest using their user ID and password. The Fund Agency user
selects the AFS, date, inventory method (First-In First-Out (FIFO) or Specific ID), security type,
and redemption amount in FedInvest.

Before Prices Loaded – The FedInvest user may enter Market-based bill, note, bond, and TIPS
redemption requests using the FIFO inventory method before prices are loaded in the system for
up to 10 bu siness days in the future. U pon submission of the request, the user receives a
confirmation number which is proof to the customer that their request was accepted. When prices
are loaded by the FIB accountant into the InvestOne accounting system, the FIB accountant uses
the FedInvest RPA module to load the prices into FedInvest, publish them on t he website, and
apply the prices to the pending redemption transactions. Once the price has been applied to the
transaction, it is automatically posted to the InvestOne accounting system, as evidenced by the
replacement of the confirmation number with a memo number that is also on the confirmation
available to the user in FedInvest.

After Prices Loaded – The FedInvest user may enter Market-based bill, note, bond and TIPS
redemption requests using the FIFO or Specific ID inventory methods after prices are loaded in
the InvestOne accounting system and FedInvest. If Fund Agencies have tax lots (a group of the
same securities purchased on different dates) and decide to apply the specific identification
method rather than the FIFO method to redeem from specific tax lots, Fund Agencies need to
select “Specific ID” inventory method to override the InvestOne accounting system default
setting of the FIFO method, and enter the principal amount to redeem for each tax lot. Since
FedInvest interfaces with the InvestOne accounting system, the InvestOne accounting system
automatically assigns a memo number and applies the price/rate. A confirmation of results is
available in FedInvest to FedInvest users.

Special issue par-value securities - Special issue par-value securities have unique redemption
rules that require the InvestOne accounting system to redeem them based on the order of earliest
maturity date, lowest prevailing interest rate, and FIFO. The FedInvest user receives a
confirmation with a confirmation number and a message that the redemption rules will be applied
in accordance with Treasury Fiscal Policy. The transaction will be pending until after the close of
business on the effective date. At close of business (after 3:00 pm EST) on the effective date of
the redemption, the FIB accountant uses the FedInvest RPA module to run the Post Par Value
Sell Transactions that will process, post, and assign memo numbers to the pending redemption

                                              41        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
requests in the InvestOne accounting system using the unique redemption rules. A confirmation
of results is available in FedInvest to FedInvest users.

Zero Coupon Bond securities – The FedInvest user must enter redemption requests into FedInvest
(by 11:00 am EST) and FedInvest sends an email to the FIB accountants who forward the request
to ODM for pricing. O DM prices the redemption of the Zero Coupon Bond at approximately
12:00 pm EST and forwards the results to FIB via email. The FIB accountant enters the pricing
results into the InvestOne accounting system, posts the transaction, and forwards the memo
number to the FedInvest user. A confirmation of results is available in FedInvest to the FedInvest
users.

FIB may receive redemption requests via fax, email, or hard-copy from Fund Agencies when
necessary. A FIB accountant enters the request into FedInvest or the InvestOne accounting
system on behalf of the Fund Agency. Th en two FIB accountants review and initial the
redemption request. A confirmation of results is available in FedInvest to the FedInvest user the
same day.

On the following business day, a F IB accountant compares the InvestOne report (Prior Day
Review) to the redemption requests submitted by the Fund Agency to ensure transactions were
properly entered into the InvestOne accounting system. The FIB accountant documents this
review by initialing the redemption request.

Investment Maturity Processing

If Fund Agencies do not redeem securities prior to the maturity date, the InvestOne accounting
system automatically matures the securities on the maturity date. A confirmation of results is
available in FedInvest to the FedInvest user. Each day, a FIB accountant compares the system
generated maturities to expected maturity reports ran after the close of the previous business day.

Each business day, a FIB accountant runs a report for all one-day investments from the previous
business day and the current day's maturities, reviews the report to make sure that all one-day
investments matured and paid interest, and documents approval by initialing the daily checklist.

Complementary Fund Agency Controls

Fund Agencies should establish controls to:

•   Ensure that the submission of investment/redemption requests in FedInvest is accurate and
    completed prior to 3:00 pm EST (11:00 am EST for Zero Coupon Bonds).

•   Notify FIB if the investment/redemption requests have been processed incorrectly so that
    correcting transactions may be processed before 3:00 pm EST.

•   Review investment/redemption/maturity/interest confirmations and Monthly Statements of
    Account to ensure that each request was processed accurately, timely, and in accordance with
    Fund Agency instructions.

•   Ensure that access to FedInvest is restricted to properly authorized individuals.




                                               42        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
Tests of Operating Effectiveness and Results of Testing

1. For a selection of business days, inspected documentation of the daily procedures performed
   by the FIB accountants regarding the market-based securities pricing and determined that the
   FIB accountants followed the established policies and procedures, as evidenced by the FIB
   accountants’ sign off on the daily procedures checklist.

2. For a selection of business days, inspected the daily procedures checklist and determined that
   the FIB accountants performed a yield curve comparison to identify significant variances
   between the ODM price file for market-based securities and the composite Bloomberg
   generic pricing source obtained from the Bloomberg terminal.

3. For a selection of business days, inspected the daily procedures checklist and determined that
   the FIB accountant ran the desktop COBOL program that compares the FIB calculated prices
   for market-based securities to the prices contained in the ODM files producing an exception
   report of any differences.

4. For a selection of business days, inspected the daily procedures checklist, the InvestOne
   accounting system security definition screens, and the FedInvest screen and determined that
   for transactions occurring before August 23, 2010 a se cond FIB accountant reviewed the
   loaded overnight interest rate for one-day securities into the InvestOne accounting system and
   FedInvest by c omparing the InvestOne accounting system security definition screens to the
   FedInvest overnight interest confirmation and ODM email to ensure the rate was recorded
   accurately. For transactions occurring on or after August 23, 2010, verified that two FIB
   accountants compared the InvestOne accounting system security definition screens to the
   ODM email received to ensure the rate was recorded accurately.

5. For a selection of months, inspected documentation of the PIAT provided pricing for par-
   value securities and determined that the PIAT team leader reviewed the rates provided to FIB,
   the FIB accountant accurately loaded the rates into the InvestOne accounting system, and a
   second FIB accountant compared the rates from the InvestOne accounting system security
   definition screens to the rates provided by PIAT to ensure the rate was accurately recorded.

6. For a selection of investments and redemptions of Zero Coupon Bonds, inspected the
   transaction confirmation from FedInvest and determined that: the pricing information
   provided by ODM was accurately recorded into the InvestOne accounting system, two other
   FIB accountants reviewed the pricing information to ensure accuracy, and the transaction was
   recorded accurately and in a timely manner.

7. Inspected investment/redemption processing request procedures and observed the FIB
   accountant process investment/redemption requests and determined that FIB processed
   investment/redemption requests in accordance with the established procedures.

8. For a sel ection of investment/redemption requests, inspected signed request for
   investment/redemption forms or emailed authorization and determined that: FIB was
   authorized by the Fund Agency to process each investment/redemption request prior to entry
   into FedInvest or the InvestOne accounting system, the documented procedures were
   followed, the investment/redemption request was initialed by the accountant recording the
   entry, the entry was properly reviewed and initialed by two other FIB accountants after entry
   into the FedInvest or the InvestOne accounting system, a comparison of each request form to


                                             43        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
    the Prior Day Review report was documented by an FIB accountant, the request was recorded
    accurately and in a timely manner, and documentation is maintained and available.

9. For a redemption request entered through FedInvest, inspected the confirmation and
   determined that the redemption was recorded accurately and processed as requested in a
   timely manner.

10. For an investment request entered through FedInvest, observed the InvestOne accounting
    system automatically assign a memo number, apply the price/rate and generate and post an
    on-line confirmation, and determined that the request was recorded accurately and processed
    in a timely manner.

11. Observed the FIB accountant use the FedInvest RPA module to run the Post Par Value Sell
    Transactions and process, post, and assign memo numbers to the pending redemption
    requests in the InvestOne accounting system using the redemption rules for par-value
    securities and determined that the FIB accountant followed the established polices and
    procedures. Further, reperformed the system’s selection of the security redeemed for one
    Fund Agency redemption request and determined that the system properly applied the
    redemption rules for par-value securities.

12. For a selection of business days, inspected documentation of the daily procedures performed
    by the FIB accountants regarding par-value security redemptions and determined that the FIB
    accountants followed the established policies and procedures, as evidenced by the FIB
    accountants’ sign off on the daily procedures checklist.

13. For a selection of business days, inspected documentation of the daily procedures performed
    by the FIB accountants and determined that the FIB accountant ran a report for all one-day
    investments from the previous business day and the current day’s maturities, reviewed the
    report to ensure that all one-day investments matured and paid interest, and documented
    approval by initialing the daily checklist.

14. For a matured investment, inspected the corresponding confirmation and determined that the
    InvestOne accounting system automatically matured the security on the maturity date,
    accurately recorded the transaction in a timely manner, and posted an on-line confirmation on
    FedInvest.

No exceptions noted.




                                             44        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 10 – Confirmations

Controls provide reasonable assurance that confirmations are processed in a timely and accurate
manner.

Description of Controls

The InvestOne accounting system assigns a memo number for transactions entered in FedInvest
that are posted immediately into the InvestOne accounting system.

A confirmation number is created for each transaction entered into FedInvest that is not processed
immediately upon entry (e.g., market based transactions before prices are loaded, Zero Coupon
Bonds, and special issue par-value redemptions) to notify the user that the transaction is in the
processing queue. On ce transactions are processed into the InvestOne accounting system, the
InvestOne accounting system assigns an individual memo number that replaces the confirmation
number. M emo numbers are provided to Fund Agency FedInvest users through the interface
between FedInvest and the InvestOne accounting system.

For each entry into the InvestOne accounting system, the system automatically generates and
posts an on-line confirmation of the transaction available in FedInvest for Fund Agency
reconciliation. Fund agencies access FedInvest using their user ID and password to obtain
confirmations.

Complementary Fund Agency Controls

Fund Agencies should establish controls to:

•   Track investment/redemption confirmations to ensure that the Fund Agency FedInvest user
    correctly processes all requests.

•   Review and reconcile all transaction confirmations to determine that they are accurate and
    complete, and report discrepancies to FIB so correcting transactions may be processed before
    3:00 pm EST.

•   Ensure that access to FedInvest is restricted to properly authorized individuals.

•   Review investment/redemption/maturity/interest confirmations and Monthly Statements of
    Account to ensure that each request was processed accurately, timely, and in accordance with
    Fund Agency instructions.

Tests of Operating Effectiveness and Results of Testing

1. For an investment request, a r edemption request, and a m aturity of securities, inspected
   FedInvest and determined that FedInvest automatically generated and posted an on-line
   confirmation that accurately reflected the transaction and indicated that the transaction was
   processed accurately and timely.

2. For an investment request, a r edemption request, and a m aturity of securities, observed the
   processing of transactions in the InvestOne accounting system and noted that the InvestOne
   accounting system automatically assigned a memo number and the request was r ecorded
   accurately and in a timely manner.

                                               45        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
3. For an investment or redemption request entered into FedInvest but not immediately
   processed into the InvestOne accounting system (due to the fact that pricing information for
   the investment was not yet loaded or that close of business par-value redemption rules were
   not yet applied), observed FedInvest and noted that a confirmation number was automatically
   assigned and an on-line confirmation was generated to indicate that the transaction was in the
   processing queue. O bserved FedInvest after the pricing information was loaded or the
   business day was closed and noted that the confirmation number assigned upon da ta entry
   was replaced with a m emo number and that the request was r ecorded accurately and in a
   timely manner.

No exceptions noted.




                                             46        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 11 – Fund Balance Adjustment

Controls provide reasonable assurance that Fund Agency account balance adjustments, due to
errors in processing or Fund Agency errors, are processed completely and accurately.

Description of Controls

Fund Agencies should detect errors by reviewing confirmations. Fund Agencies notify FIB of the
errors and send adjustment information. FIB maintains a documented procedure detailing the
steps that need to be performed when making a correction or adjustment.                     The
Correction/Adjustment Check List documents the tasks that generally need to be completed when
making a correction or adjustment. When necessary, a FIB accountant enters an adjustment or
corrects the original transaction in the InvestOne accounting system. The InvestOne accounting
system processes the adjustment and a confirmation of the adjustment or corrected transaction is
available in FedInvest to the FedInvest user.

The FIB accountant prepares a co rrection package and completes the Correction/Adjustment
Check List when adjustments are necessary. Two other FIB accountants, (the team leader and a
reviewing FIB accountant), review and approve the correction package and any transactions
posted to the InvestOne accounting system, PARS, and/or IPAC, as applicable. The review and
approval process is completed by determining the necessary steps on the Correction/Adjustment
Check List have been performed.

A FIB accountant runs a report from the FIB Menu (a COBOL collection of desktop programs) to
create Monthly Statements of Account, which documents all transactions processed for a
particular month, including any necessary adjustments. The Monthly Statement of Account is
made available in FedInvest and on the BPD’s TreasuryDirect website for review by t he Fund
Agencies.

Complementary Fund Agency Controls

Fund Agencies should establish controls to:

•   Review investment/redemption/maturity/interest confirmations and Monthly Statements of
    Account to ensure that each request was processed accurately, timely, and in accordance with
    Fund Agency instructions.

•   Review adjustments and make prompt and appropriate journal entries to the accounting
    records, to adjust the investment account balances and related interest.

•   Review Monthly Statements of Account to verify that adjustments were processed completely
    and accurately.




                                              47      Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Tests of Operating Effectiveness and Results of Testing

1. Inquired of management and inspected written procedures to determine that the consistent use
   of the procedures is likely to help prevent deviations from operations as described in the
   control description.

2. For a selection of error corrections and adjustments, inspected the correction package and the
   completed      Correction/Adjustment       Check    List     and     determined     that   the
   corrections/adjustments were performed in accordance with the established procedures.

3. For a selection of fund balance adjustments, inspected the Fund Agency’s adjustment request
   and the Correction/Adjustment Check List and determined that two other FIB accountants,
   including the team leader, documented their review of each adjustment request and that the
   request was processed completely and accurately.

4. Observed the FIB accountant prepare and post the Monthly Statement of Account for one
   month and noted that the FIB accountant followed the established policies and procedures.

5. For a selection of Monthly Statements of Accounts, inspected the Monthly Statements of
   Accounts on FedInvest and determined that they were posted by the first working day after
   the end of the month and were made available for review to the Fund Agencies.

6. For a s elected adjustment, inspected the respective Monthly Statement of Account and
   determined that the Monthly Statement of Account indicated that the adjustment was
   processed accurately.

No exceptions noted.




                                             48        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 12 – Recordkeeping

Controls provide reasonable assurance that support related to the investment accounts is
documented and readily available.

Description of Controls

Transaction confirmations and the Monthly Statements of Account containing InvestOne
accounting system data are available in FedInvest to the FedInvest users. The Monthly Statement
of Account is also available on the TreasuryDirect website. F IB maintains file copies of the
investment/redemption requests that were processed by FIB on behalf of the Fund Agency.

On a d aily basis, FIB receives market-based security price files from ODM and FRB of New
York, Zero Coupon Bond pricing as needed from ODM, and a daily email for the one-day
certificate rate from ODM. On a monthly basis, FIB receives via email the special issue par-
value security rates from PIAT. T hese quotations document the security prices/rates and are
retained for future reference for a period of twenty years in accordance with the BPD document
retention policies. FIB files and retains Daily Principal Totals Reports, which detail all daily
principal transactions and are reconciled to the Balances-Summary report daily.

FIB maintains copies of the Notification of Principal & Interest (P&I) Credit, which report
principal and interest activity on certain Marketable or Agency Security investments held at FRB
of New York. Each month, FIB prepares the Standard Form 1132, Investment Funds Summary
Holding Report (SF1132), Standard Form 1133-1, Marketable Securities Held by GAS Agencies
(SF1133-1), and Standard Form 1134-1, Agency Securities Held by GAS Agencies (SF1134-1)
reports, which document each Fund Agency’s account balance, including securities held in
safekeeping at FRB New York. These reports are published on the TreasuryDirect website.

Tests of Operating Effectiveness and Results of Testing

1.   For a sel ection of Monthly Statements of Account, inspected the Monthly Statements of
     Account and determined that the reports were maintained and readily available.

2.   For a s election of investment/redemption requests, inspected the confirmations and
     determined that confirmations were maintained and readily available.

3.   For a sel ection of investment/redemption requests, inspected the Request for
     Investment/Redemption forms and determined that documentation was maintained and
     available.

4.   For a sel ection of dates, inspected the Daily Principal Totals Reports and determined that
     the FIB accountants reconciled the reports to the Balances-Summary report, the
     reconciliation was mathematically correct and documented, and the documentation was
     maintained and available.

5.   For a sel ection of transactions or dates, inspected pricing records and determined that
     pricing documentation was maintained and available.

6.   For a selection of months, inspected the Notification of P&I Credit and determined that the
     documentation was maintained and available.



                                             49       Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
7.   For a selection of months, inspected the SF1132, SF1133-1, and SF1134-1 reports and
     determined that the reports were maintained and readily available.

No exceptions noted.




                                         50       Control Objectives, Related Controls, and
                                                           Tests of Operating Effectiveness
Control Objective 13 – Segregation of Duties

Controls provide reasonable assurance that the duties of authorizing, processing information, and
verifying documents are appropriately segregated.

Description of Controls

FIB has established policies and procedures documenting that the following responsibilities are
segregated for Fund Agencies using FedInvest:

    •   Fund Agencies are responsible for requesting access to FedInvest.
    •   External FedInvest users must have their supervisor’s approval along with OPDA ISSR
        approval documented on an Access Request/Revoke form before access is granted to or
        revoked from FedInvest.
    •   Access permissions are assigned to FedInvest and the InvestOne accounting system users
        commensurate with their job responsibilities by the OPDA ISSRs.
    •   FIB Accountants set up accounts in InvestOne accounting system/FedInvest and OPDA
        ISSRs set up users in InvestOne accounting system/FedInvest.
    •   Fund Agencies access FedInvest and submit investment purchase and redemption
        requests.
    •   FedInvest interfaces with the InvestOne accounting system which processes and posts the
        investment and redemption requests and provides the data for the confirmations that are
        available in FedInvest to the FedInvest users.

FIB has established policies and procedures documenting that the following responsibilities are
segregated when FIB processes transaction requests on behalf of the Fund Agencies:

    •   Fund Agencies prepare and submit investment/redemption requests to FIB via fax, email,
        or hard copy form.
    •   FIB personnel enter the investment purchase or redemption request into FedInvest or the
        InvestOne accounting system.
    •   The InvestOne accounting system processes the investment and redemption requests and
        provides the data for the confirmations that are available in FedInvest to the FedInvest
        users.
    •   To verify that transactions have been processed accurately, two FIB accountants other
        than the one who entered the transaction will review and compare a copy of the
        investment/redemption request from the Agency to the data entered into the InvestOne
        accounting system. Both the accountant entering the transaction and those reviewing it
        initial the file copies to document that the procedure has been performed.
    •   On the following business day, an FIB accountant compares the InvestOne report (Prior
        Day Review Report) to the investment/redemption request submitted by the Fund Agency
        to ensure transactions were properly entered into the InvestOne accounting system. The
        FIB accountant documents completion of this review by initialing the
        investment/redemption request.

Complementary Fund Agency Controls

Fund Agencies should establish controls to:

•   Ensure that access to FedInvest is restricted to properly authorized individuals.


                                               51        Control Objectives, Related Controls, and
                                                                  Tests of Operating Effectiveness
Tests of Operating Effectiveness and Results of Testing

1. Inspected investment/redemption processing request procedures, observed the FIB accountant
   process investment/redemption requests, and determined and determined that FIB processed
   the investment/redemption requests in accordance with the established procedures.

2. For a sel ection of investment/redemption requests, inspected signed Request for
   Investment/Redemption forms or emailed authorization and determined that: FIB was
   authorized by the Fund Agency to process each investment/redemption request prior to entry
   into the InvestOne accounting system, the documented procedures were followed, the
   investment/redemption request was initialed by the accountant recording the entry, the entry
   was properly reviewed and initialed by two other FIB accountants after entry into the
   InvestOne accounting system, a comparison of each request form to the Prior Day Review
   report was documented by an FIB accountant, the request was recorded accurately and in a
   timely manner, and documentation is maintained and available.

No exceptions noted.




                                            52        Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
Control Objective 14 – Interest Calculation and Payments

Controls provide reasonable assurance that interest is calculated accurately and interest
reinvestments are completed accurately.

Description of Controls

Interest

FIB has documented the methods for calculating interest for Government Account Series
securities in written desktop procedures. One-day securities pay interest daily, special issue par-
value securities pay interest semi-annually on June 30 and December 31, and market-based notes,
bonds and TIPS pay interest semi-annually on various dates. T he market-based bills and Zero
Coupon Bonds do not pay periodic interest and therefore interest income is equal to the discount
earned. The InvestOne accounting system calculates the amount of interest to be paid when
holdings are redeemed or interest payments are due. The InvestOne accounting system calculates
interest based on the security set-up and investment terms in the system in accordance with the
requirements of 31 CFR Chapter II, Part 306, Subpart E, and Part 356, Appendix B, with the
exception of one-day securities. The InvestOne accounting system calculates interest for one-day
securities using the rate that FIB receives from ODM.

The InvestOne accounting system reports the results of the calculations on confirmations
available in FedInvest for Fund Agency reconciliation and re-computation. The confirmation
generation process is summarized as follows.

Fund Agencies access FedInvest using their user ID and password. S ince FedInvest interfaces
with the InvestOne accounting system, the InvestOne accounting system data is displayed on the
confirmations that are immediately available in FedInvest to the FedInvest user.

The InvestOne accounting system also calculates certain accrued interest amounts and Inflation
Compensation Earned (ICE) on t he TIPS. T he InvestOne accounting system calculates ICE in
accordance with the requirements of 31 CFR Chapter II, Part 356, Appendix B.

FIB accountants can verify the accuracy of the InvestOne accounting system interest calculations
by manually recalculating interest for redemptions, maturities and semi-annual payment dates.

A COBOL program uses extracted data from the InvestOne accounting system to generate
Monthly Statements of Account (a cash basis statement that reflects the Agency’s investment SF
224 reporting, and shows interest income paid on each security). To create the Monthly Statement
of Account, a FIB accountant runs the COBOL program for both tax lot and summary levels.
This creates two text files for each Fund. T he FIB accountant sends the tax lot and summary
level Monthly Statement of Account via email to the BPD Web Content Management for review
and publishing in FedInvest and on the TreasuryDirect website.

The Monthly Statements of Account and confirmations are available to the Fund Agencies for
reconciliation with their accounting records. In addition, previous months’ statements are
available for reference purposes. I f the Fund Agency identifies any errors, the Fund Agency
should inform FIB so the necessary adjustments may be made.




                                              53        Control Objectives, Related Controls, and
                                                                 Tests of Operating Effectiveness
Amortization of Premiums and Discounts

The InvestOne accounting system automatically calculates amortization of discount/premium
based on t he security set-up and investment terms in the system. FIB has documented the
methods for calculating the discount/premium amortization in written desktop procedures. The
system calculates amortization for market-based bills (i.e., short-term securities) using the
straight-line method and for market-based notes/bonds/TIPS/Zero Coupon Bonds (i.e., long-term
securities), using the level yield method, which approximates the interest method. A COBOL
program is used to create monthly Accrual Confirmation and Accrual Activity Reports for each
account, which contain the amortization amounts that are published in FedInvest for Fund
Agency reconciliation and re-computation. To create the Accrual Confirmation and Accrual
Activity Reports, a F IB accountant selects and runs the “accrual report” option from the FIB
report menu. This generates two text files that include the Accrual Confirmation and Accrual
Activity Reports for each fund. The FIB accountant sends the Accrual Confirmation and Accrual
Activity Reports via email to the BPD Web Content Management for review and publishing in
FedInvest. In addition, previous months’ statements are available for reference purposes. If the
Fund Agency identifies any errors, the Fund Agency should inform FIB so the necessary
adjustments may be made.

Accrued Interest

The InvestOne accounting system automatically calculates accrued interest based on the security
set-up and investment terms in the system. FIB has documented the methods for calculating the
accrued interest in written desktop procedures. The FIB Menu accrual report program reports the
results of interest accruals in the monthly Accrual Confirmation and Accrual Activity Report and
publishes the report in FedInvest for Fund Agency reconciliation and re-computation. To create
the Accrual Confirmation and Accrual Activity Reports, a F IB accountant selects and runs the
“accrual report” option from the FIB report menu that generates two text files that include the
Accrual Confirmation and Accrual Activity Reports for each fund. The FIB accountant sends the
Accrual Confirmation and Accrual Activity Reports via email to the BPD Web Content
Management for review and publishing in FedInvest. In addition, previous months’ statements
are available for reference purposes. If the Fund Agency identifies any errors, the Fund Agency
should inform FIB so the necessary adjustments may be made.

Interest Reinvestments

FIB prepares an Investment Rollover Report for the Office of Fiscal Projections that includes
principal balances from the InvestOne accounting system and interest accruals that are associated
with those balances as of the date of the report. For the December 31 interest payments on
special issue par-value securities, the interest is reinvested into a cer tificate of indebtedness
maturing the following June 30. For June 30 m aturities and interest payments, FIB receives
written documentation from each agency that holds special issue par-value securities that states
how they want their interest and maturities reinvested. June 30 is the only date in which agencies
can invest in longer term special issue par-value securities (par-value bonds). OPDA reviews and
approves the Investment Rollover Report for accuracy and sends the report to Treasury
headquarters. T he Fiscal Assistant Secretary of Treasury approves and returns the Investment
Rollover Report for FIB to process on June 30. The interest-reinvestment process for the non-
par-value securities is the same as and subject to the regular investment process discussed in
Control Objective 9.



                                              54       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Complementary Fund Agency Controls

Fund Agencies should establish controls to:

•   Ensure that the requested investment returns the appropriate amount of interest to meet their
    investment income goals.

•   Reconcile interest payments received as p resented in the confirmations and Monthly
    Statements of Account and recalculate interest for accuracy.

•   Approve reinvestments of interest after review for accuracy, completeness, and compliance
    with instructions.

•   Recalculate interest accrual and amortization of premium and/or discount and compare the
    results to the BPD provided monthly Accrual Confirmation and Accrual Activity Reports.

•   Report any interest accrual discrepancies noted on the monthly Accrual Confirmation and
    Accrual Activity Reports to BPD for resolution.

•   Report any premium and/or discount amortization discrepancy noted on the monthly Accrual
    Confirmation and Accrual Activity Reports to BPD for resolution.

Tests of Operating Effectiveness and Results of Testing

1. Inspected interest calculation procedures and determined that interest calculation transactions
   were processed in accordance with procedures.

2. Inspected interest calculation procedures and determined that they were consistent with the
   requirements of 31 CFR, Chapter II, Part 306, Subpart E and Part 356, Appendix B.

3. For a selection of interest transactions including each type of GAS security other than one-
   day securities, recalculated the interest amounts, amortization, and ICE and determined that
   the system calculations were in accordance with the CFR requirements and mathematically
   accurate.

4. For a selection of one-day securities, recalculated the interest income and determined that the
   system calculations were mathematically accurate and complied with the desktop procedures.

5. For a sel ection of transactions processed in the InvestOne accounting system, inspected
   confirmations and determined that subsequent to transactions posting in the InvestOne
   accounting system, the system automatically generated and posted an on-line confirmation of
   the transaction available in FedInvest to Fund Agencies.

6. Inspected a confirmation and determined that the confirmation contained appropriate and
   necessary information to allow for Fund Agency reconciliation and re-computation of
   transactions.

7. For a sel ection of Accrual Confirmation Reports and Accrual Activity Reports, inspected
   FedInvest and determined that the reports were available in FedInvest to Fund Agencies.




                                              55       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
8. Observed the FIB accountant generate an Accrual Confirmation Report and Accrual Activity
   Report and email them to BPD Web Content Management for review and publishing in
   FedInvest. We attempted to modify the published Accrual Confirmation and Acrual Activity
   Reports and determined that the modification of the reports was prevented.

9. For a sel ection of transactions from the Accrual Confirmation Reports, recalculated the
   amortization of premium and discount, and determined that the amortization was calculated
   accurately or the level yield method amortization method utilized by FIB for long-term
   securities approximated the interest method. Obtained the Accrual Activity Reports for the
   same date as the Accrual Confirmation Reports and ensured that the amortization recorded
   for the month was al so calculated and reported accurately and used the appropriate
   amortization method (short term = straight line, long term = level yield/effective interest).

10. For a selection of Accrual Confirmation Reports and Accrual Activity Reports, inspected the
    reports and determined that they contained the necessary information for Fund Agencies to
    reconcile and re-compute accruals and amortization and that the information documented was
    accurate.

11. For a selection of Investment Rollover Reports, inspected the reports and determined that FIB
    management documented its review and approval of each report prior to distributing it to the
    respective Fund Agencies and that FIB maintained the written interest and maturities
    reinvestment requests from the Fund Agencies.

12. Inspected the June 2011 I nvestment Rollover Report and determined that FIB management
    documented its review and approval of each rollover plan in the Investment Rollover Report
    and the Fiscal Assistant Secretary of the Treasury approved the report prior to processing.

13. For a sel ection of par-value securities interest reinvestments, inspected the supporting
    instructions and determined that reinvestments were completed in accordance with Fund
    Agency instructions.

No exceptions noted.




                                             56        Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Control Objective 15 – Statement Rendering

Controls provide reasonable assurance that monthly reports are processed in a timely and accurate
manner.

Description of Controls

Monthly Statements of Account

A FIB Menu program extracts data from the InvestOne accounting system to produce the
Monthly Statement of Account that details cash basis reporting of a Fund Agency’s beginning
balance, investment/redemption activity, unrealized discount, premium/discount recognized,
interest earnings, adjustments processed and ending balance for the month. These reports are
available in FedInvest and on the TreasuryDirect website by the 1st working day after the end of
the month to be accessed by Fund Agencies for transaction reconciliation, investment monitoring,
and investment strategy initiatives. T o create the report, the FIB accountant runs a COBOL
program that uses InvestOne accounting system data to create text files of the Monthly
Statements of Account at both the summary level and tax lot level for each fund. The FIB
accountant sends the tax lot and summary level Monthly Statements of Account via email to the
BPD Web Content Management for review and publishing in FedInvest and on the
TreasuryDirect website. In addition, previous months’ statements are available for reference
purposes. If the Fund Agency identifies any errors, the Fund Agency should inform FIB so the
necessary adjustments may be made. FIB’s policy requires that FIB accountants complete and
forward Monthly Statements of Account at the tax lot and summary level to the BPD Web
Content Management for review and publishing in FedInvest and on the TreasuryDirect website
by the 1st working day after the end of the month.

IPAC and Partial SF-224 Report

Federal Program Agencies are required to report the monthly investment activity to Treasury,
Financial Management Service (FMS). This reporting is generally accomplished using the
monthly SF-224, Statement of Transactions. However, FIB is able to report daily investment
activity to FMS on behalf of the Fund Agencies by submitting FIB's daily IPAC file to FMS. FIB
creates the FIB daily IPAC file, which is a configured system report, using a mainframe job. The
file includes the Fund Agency's Treasury Account Symbol (TAS) and the Business Event Type
Code (BETC) allowing the activity to be classified in the FMS Governmentwide Account
Statement, eliminating the need for the monthly SF-224 report for investment transactions.
According to the Treasury Financial Manual Bulletin No. 2007-03, FIB should report the
investment activity for all investment customers. As of August 6, 2009, FIB had transitioned all
Fund Agencies to this process.

Additionally, FIB prepares a partial SF-224 on a monthly basis to report non-IPAC activity,
which consists of reclassification entries. FIB creates the partial SF-224 report and file using a
mainframe program and the InvestOne accounting system. FIB uploads the partial SF-224 file to
FMS using the GWA system. FIB instructs Fund Agencies to obtain access to the FMS GWA
Account Statement application in order to verify the activity submitted by FIB.




                                              57       Control Objectives, Related Controls, and
                                                                Tests of Operating Effectiveness
Complementary Fund Agency Controls

Fund Agencies should establish controls to:

•   Review FIB provided Monthly Statements of Account to ensure that transactions are recorded
    accurately and timely, and report discrepancies to FIB so correction processes may occur.

•   Reconcile investment activity from the FMS application Governmentwide Account
    Statements to the FIB provided Monthly Statements of Account to verify that investment
    activity is being properly reported by FIB on the Fund Agencies’ behalf.

Tests of Operating Effectiveness and Results of Testing

1. For a selection of Monthly Statements of Account, inspected the Monthly Statements of
   Account on FedInvest and determined that they were posted by the first working day after the
   end of the month.

2. For a selection of transactions, inspected the respective Monthly Statements of Account and
   determined that the transactions were accurately reflected in the Monthly Statements of
   Account.

3. Inquired of FIB management regarding the process of sending the tax lot and summary level
   Monthly Statements of Account via email to the BPD Web Content Management. Observed
   the FIB accountant generate the Monthly Statements of Account and accessed the published
   reports on t he web and determined that they cannot be modified and re-saved by anyone
   outside of the BPD Web Content Management team.

4. For a selection of posted Monthly Statements of Account, attempted to modify the published
   Monthly Statements of Account and determined that the modification of the statement was
   prevented.

5. Observed the FIB accountant process the daily IPAC file and noted that the file contained the
   Fund Agency's Treasury Account Symbol and the Business Event Type Code.

6. For a selection of business days, inspected documentation of the daily procedures performed
   by the FIB accountants regarding the daily IPAC file submission and determined that the
   accountants followed the established policies and procedures, as evidenced by the FIB
   accountant’s initials on the daily procedures checklist.

7. For a selection of monthly partial SF-224 submissions, inspected the partial SF-224
   submissions and determined that the investment activity was reviewed by a FIB accountant
   other than the preparer.

No exceptions noted.




                                              58      Control Objectives, Related Controls, and
                                                               Tests of Operating Effectiveness
IV.   OTHER INFORMATION PROVIDED BY THE
       BUREAU OF THE PUBLIC DEBT




                  59       Other Information Provided by the
                                   Bureau of the Public Debt
CONTINGENCY PLANNING

System Back Up

The InvestOne accounting system has a contingency plan managed by the Division of Systems
and Program Support (DSPS). There is a formal Division of Federal Investments (DFI), Business
Continuity Plan (BCP), which is part of a larger BCP for the Office of Public Debt Accounting
(OPDA) and the Bureau of the Public Debt (BPD) Continuity of Operations Plan (COOP). The
Federal Investments Branch (FIB) performs tests on all essential daily InvestOne accounting
system functions 13

The Office of Information Technology (OIT) performs backups of the InvestOne accounting
system on a regular schedule. OIT retains the backup tapes according to a pre-set schedule 14 at
an offsite facility. O IT stores one copy in the production tape library, and the other copy is
shipped to an offsite facility. Long-term storage of tapes is provided through a contract with an
offsite storage facility. If a backup tape needs to be restored, the request will be made from the
DSPS. OIT will then load the backup tape.

Continuity of Operations

A fire alarm and sprinkler system that is managed, maintained, and tested by the building
management protects the data center 15. Sprinkler heads are located in the ceiling of each room of
the buildings. This is a wet pipe (always charged with water) system with individual heads that
discharge water. 16

The DFI Business Continuity Plan calls for resumption of operations and critical applications of
essential functions within a p re-set time frame 17. The InvestOne accounting system has been
classified as a critical application.

As part of the DFI BCP, should the facility supporting InvestOne accounting system and
FedInvest become unavailable, designated FIB personnel will relocate to reestablish their daily
operations. Wh en applicable, BPD will revert to manual procedures until the mainframe and
InvestOne accounting system are fully recovered.




13
   FIB performs emergency telework tests on all essential InvestOne functions a minimum of quarterly. The focus of these tests is to
provide assurances that connectivity can be made and these functions will continue with minimum interruption during any emergency
that may occur with or without warning.
14
   OIT uses IBM's Tape Management System to perform backups daily at 6:00 PM. OIT retains the first backup for 15 days.
15
   Alarms are active 24 hours a day, 7 days a week, and are tied in to the local fire department over phone lines for spontaneous
notification
16
   In the event the main building, where the InvestOne accounting system is run, becomes inoperable, mainframe operations would be
relocated to the BPD contingency facility in accordance with the OIT data center recovery plan. This facility employs a warm site
strategy for recovery of mainframe operations. OIT has contracted with the Financial Management Service to provide mainframe
equipment for this site.
17
   4 hour time frame.
                                                                60                   Other Information Provided by the
                                                                                                 Bureau of the Public Debt
